<html>
<title> - ASSESSING THE U.S.-QATAR RELATIONSHIP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 ASSESSING THE U.S.-QATAR RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________

                           Serial No. 115-55

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
  

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-427PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jonathan Schanzer, Ph.D., senior vice president, Foundation for 
  Defense of Democracies.........................................     7
Matthew Levitt, Ph.D., director and Fromer-Wexler fellow, Stein 
  Program on Counterterrorism and Intelligence, The Washington 
  Institute for Near East Policy.................................    33
Mr. Ilan Goldenberg, senior fellow and director, Middle East 
  Security Program, Center for a New American Security...........    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Jonathan Schanzer, Ph.D.: Prepared statement.....................    10
Matthew Levitt, Ph.D.: Prepared statement........................    36
Mr. Ilan Goldenberg: Prepared statement..........................    47

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    90

 
                 ASSESSING THE U.S.-QATAR RELATIONSHIP

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses.
    And without objection, witnesses, your prepared statements 
will be made a part of the record, and members may have 5 days 
to insert statements and questions for the record, subject to 
the length limitation in the rules.
    We have many members of our subcommittee who are also on 
the Judiciary Committee, including Ranking Member Deutch, and 
there is an important markup happening as we speak. So you 
might see a lot of members moving back and forth, and we 
appreciate the time they can spare to come over here.
    Thank you, Mr. Deutch.
    The Chair now recognizes herself for 5 minutes.
    Last month, this subcommittee convened a hearing on the 
challenges and opportunities for the United States Saudi Arabia 
bilateral relationship. Today, we focus on the U.S.-Qatar 
relationship and Qatar's relationship with its neighbors.
    I think it is important to note that this rift in the Gulf 
is not new. Katherine Bauer, a former senior-level official at 
the Treasury Department stated earlier this month at a think 
tank event, ``Saudi Arabia and the UAE have sought for years to 
kind of galvanize Qatar's actions against the terrorist 
financiers that were operating and continue to operate in 
Qatar.''
    Qatar has been known to be a permissive environment for 
terror financing, reportedly funding U.S. designated foreign 
terrorist organizations, such as Hamas, as well as several 
extremist groups operating in Syria.
    In 2014, the former deputy director of CIA, David Cohen, 
called out Qatar publicly along with the Kuwaitis, because 
according to him, ``The private engagement with these countries 
had not achieved what we were trying to achieve.''
    In fact, Qatar has openly housed Hamas leaders, Taliban 
leaders, and has several individuals who have been sanctioned 
by our U.S. Treasury Department, and it has failed to prosecute 
them.
    At least one high-ranking Qatari official provided support 
to the mastermind of the 9/11 terror attacks against our 
country, Khalid Sheikh Mohammad. Then, of course, there is 
Khalifa Mohammed, who is a U.S.-, EU-, and U.N.-designated 
international terrorist for his role in financing al-Qaeda and 
the 9/11 mastermind.
    In 2008, he was tried and convicted in absentia by Bahrain 
for his terrorist activity, and arrested later that year by 
Qatar only to be released by the Qataris 6 months later, and 
then openly financed by Doha.
    Can anyone guess what Khalifa Mohammed has been up to these 
days? He was implicated in terror financing activities in 2012, 
but more recently, he has been alleged to be financing and 
supporting terror in both Iraq and Syria with no response from 
the Qatari Government.
    Hamas leader, Khaled Meshaal, also made Doha his 
headquarters for years while the Qatari's--with the Qatari's 
Government support and even the Muslim Brotherhood has received 
significant support from Qatar.
    Of course, not all of this is supported by the government 
in Doha. Many individuals and charities in Qatar have been 
known to raise large sums of money for al-Qaeda, the Nusra 
front, Hamas, and even ISIS. In Qatar, there are three buckets: 
Terror financing by the government; terror financing done in 
Qatar through their own citizens that their government may not 
know about; and terror financing in Qatar that the government 
knows about but does nothing to stop.
    According to the 2015 country reports on terrorism, the 
State Department stated, ``Entities and individuals within 
Qatar continue to serve as a source of financial support for 
terrorists and violent extremist groups, particularly regional 
al-Qaeda affiliates such as the Nusra front.''
    There is no excuse for openly harboring terrorist and 
supporting groups that seek to harm our allies, and the excuse 
by Qatar that it is harboring these nefarious actors is because 
the U.S. asked them to no longer stands up.
    Qatar should not be continuing this reckless policy due to 
past mistakes from previous Republican and Democratic 
administrations. We must not allow for our air base to be used 
as a means to justify this sort of behavior, and a lack of a 
more appropriate response.
    Doha's behavior must change the status quo, and if it does 
not, it risks losing our cooperation on the air base. The truth 
of the matter is that none of the Gulf countries--none of the 
Gulf countries are without their issues. All of the nations 
have been involved in funding different groups at some point 
that we would not approve of. But it seems like Saudi Arabia 
and the UAE are making progress at a faster rate while Qatar is 
making some progress but still is lagging slowly behind.
    According to the Congressional Research Service, ``In 
October 2016, Daniel Glaser, then Assistant Secretary for 
Terrorist Financing in the Office for Terrorism and Financial 
Intelligence, told the Washington, DC, Research Institute that 
over the past decade, Qatar has made less progress in 
countering terrorism financing than had Saudi Arabia.''
    We must analyze the totality of our relationship with these 
Gulf countries. While Qatar only helps to facilitate our 
operations at our air base, the UAE, for example, has spent 12 
years with us fighting alongside in Afghanistan and has been 
involved in counterterrorism operations with the U.S. in Libya.
    So moving forward, one outcome that I hope comes out of 
this dispute is for the Gulf countries to work closely with our 
Treasury Department's Financial Action Task Force to root out 
and disrupt terror financing streams. This uneasy time may just 
be an opportunity for us to take a long hard look at how, and 
for some, if, we can effectively address and stop terror 
financing in the region, and ultimately defeat the extremism 
that threatens the security of us all.
    And with that, I turn to my friend, the ranking member, Mr. 
Deutch, for his statement.
    Mr. Deutch. Thank you, Madam Chairwoman.
    Thanks to the witnesses for being back before our 
committee. I thank the chairman for convening today's timely 
hearing to explore our relationship with Qatar at a moment of 
great instability in the region.
    The ongoing diplomatic rift between Qatar and its Gulf 
neighbors is not good for the parties of the conflict; it is 
not good for the region; and it is not good for American 
interests. It is a distraction from today's most pressing 
challenges, Iran's destabilizing activities, the conflict in 
Syria, and the spread of terrorism.
    For most Americans who expect conflict in the Middle East 
to fall along sectarian lines, or between competing regional 
hegemons, it is confusing to see Sunni Arab neighbors in 
conflict. But this is a dispute over longstanding grievances, 
over Qatar's support financially, and through its state-owned 
Al Jazeera news station, for actors and groups that Qatar's 
neighbors and, in many cases, the United States, see as deeply 
problematic.
    This feud, like others in the region, is a nuanced and 
deeply complex matter, and our relationship with Qatar is no 
less complex.
    A tiny but immensely wealthy nation pursues an ambitious 
foreign policy of close relations with all actors in the 
region. Unfortunately, this includes terror groups like Hamas 
and the Afghan Taliban. Qatar has served as a financial and 
political lifeline for Hamas' devastating rule in Gaza since 
the terror group took over more than a decade ago.
    Qatar has sent hundreds of millions of dollars into the 
Gaza strip, provides safe haven in Doha for Hamas leader, 
Khaled Meshaal, and helped legitimize Hamas rule in 2012 when 
the Emir became the first international leader to visit Hamas-
led territory.
    Qatar has also supported other dangerous groups in the 
region, including sending advanced weaponry and financing to 
extremist elements in Syria and Libya, and Al Jazeera has given 
voice to clerics calling for suicide attacks against Americans 
and Israelis.
    These realities are troubling. But Qatar is also a close 
partner in our fight against terrorism in the region. Doha 
hosts and helps fund the largest U.S. military facility in the 
Middle East, essentially our forward operating base for U.S. 
Central Command. It is from this base that we supported the 
wars in Iraq and Afghanistan, and are, today, flying air 
strikes against ISIS.
    Qatar has also helped to serve as regional mediator 
oftentimes to the benefit of the United States. Qatar has 
helped broker ceasefires between Hamas and Israel during 
periods of intense fighting. The Qataris also helped secure the 
release of Peter Theo Curtis, an American hostage held for 
nearly 2 years by the al-Qaeda linked Nusra front in Syria just 
days after that tragic beheading of fellow American journalist, 
James Foley.
    Qatar has also provided the U.S. with valuable and 
actionable intelligence on the financing streams for ISIS and 
has begun taking steps to hold Qatar accountable for terror 
financing. But they have got a lot more to do.
    While they have begun prosecuting Qataris for sending money 
to terror groups, they have done so in secret, hardly an 
effective deterrent, and it is unclear whether the outcomes of 
these prosecutions have led to any significant jail time or 
penalty.
    I was pleased to see the signing of a new memorandum of 
understanding with Secretary Tillerson earlier this month on 
terror financing, but we don't yet know the details of how this 
agreement would be implemented, and we wait to see the results.
    Madam Chairman, it is important to note also, that Saudi 
Arabia, the UAE, Egypt, and other nations now isolating Qatar, 
face challenges as well. Two weeks ago, our subcommittee held a 
similar hearing on our relationship with Saudi Arabia, in which 
we explored both our strategic partnership as well as our deep 
concern over Saudi Arabia's slow progress on human rights and 
continued exporting of fundamentalist ideology.
    Today's hearing should not be about determining who is 
right. Today's hearing should rather make it clear that this 
fighting among partners does not advance America's interests. 
We should be pushing for unity among our allies to fight common 
threats. We should be pushing all of our partners in the region 
to cut off funding to terror groups. We should be urging every 
leader to curtail hate speech, and improve the records of human 
rights, including treating women as equal members of society.
    Madam Chairman, I hope that today we can assess our 
relationship with Qatar thoughtfully. I hope our witnesses can 
help us unpack how past diplomatic risk between Qatar and its 
Gulf neighbors can inform our path forward, and I hope that we 
can review the major demands made on Qatar to reduce relations 
with Iran, shut down the Turkish military base, sever all ties 
to terror organizations, including the Muslim Brotherhood, and 
shut down Al Jazeera to understand the motivations behind these 
demands, and in an effort to see how a resolution might 
actually come.
    I trust that our witnesses today will lead us in an 
interesting and worthwhile conversation. And I appreciate--
again, I appreciate them being here.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now we will turn to our members for any opening remarks 
they might have, starting with Mr. Cook of California.
    Mr. Cook. Thank you, Madam Chair.
    This is going to be a very interesting hearing. It is 
almost similar to the one we had with Turkey. Friend or foe? 
And, obviously, as already been discussed, some of the issues 
that are going to come up, the relationship with Hamas, 
Taliban, financing and everything else, and now there is a new 
wrinkle, and that is the World Cup and the North Korean workers 
that are going to be paid for by that government there with the 
money going back to North Korea that is probably going to be 
used to finance more missile research. And I don't think I have 
to tell the panel or anybody here that this is an even more 
troubling scenario than some of the others. We are talking 
about a large number of North Koreans, including the North 
Korean military that are going to be working on that.
    And I hope that our panel will also discuss that as well as 
the other issues that were just raised.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Suozzi of New York.
    Mr. Suozzi. Suozzi. Thank you so much, Madam Chair.
    Ms. Ros-Lehtinen. Suozzi. I am so sorry.
    Mr. Suozzi. It's okay. I am used to that for a long time 
now.
    Madam Chairman and ranking member, I want to thank you so 
much for holding this hearing. It is very timely. It is very 
difficult for many of us to untangle all the complicated 
relationships that exist in this region. We simply don't have 
the background that the witnesses do, and that is why we are so 
appreciative of them being here to testify today.
    Between the religious dispute and the tribal and family 
relationships and the historic disputes and people's economic 
interests, it is sometimes difficult to untangle who the 
different parties are. And no one in the region really has 
clean hands. And we need to figure out how to promote our 
agenda in America and throughout the West, which is that we 
have to stand strong and hard against people who use propaganda 
and hate speech and economic warfare to promote extremism and 
violence.
    So I am excited to be here today and to listen to what the 
witnesses have to say. Thank you.
    Mrs. Wagner [presiding]. Thank you, gentlemen.
    The Chair now recognize Mr. Zeldin for 5 minutes--oh, 1 
minute. These are 1 minute that we are doing. Sorry. I have 
just taken over the chair.
    Mr. Zeldin, you are recognized.
    Mr. Zeldin. Well, thank you, Madam Chairwoman. And I am 
very much looking forward to today's hearing and listening to 
our witnesses and being able to ask questions and getting 
feedback.
    A lot of great our thoughts are already shared, I 
especially like the ranking member's opening testimony. He 
really touched on so much of what I, too, care deeply about.
    Recently, I was in Qatar, and I found them to be very 
welcoming. They were going as far out of their way as possible 
to make progress in our relationship. We visited the military 
base that was there, and our servicemembers were well taken 
care of in a good, strategic location. And at the same exact 
time, I am greatly concerned by the welcoming atmosphere that 
exists for Hamas. And I just want to better understand the 
future of this relationship, and the reasons why the reality 
exists as it does right now in 2017.
    So thank you, again, for doing this hearing. I look forward 
to the testimony.
    Mrs. Wagner. Thank you, Mr. Zeldin.
    The Chair now recognizes Mr. Lieu for 1 minute, please.
    Mr. Lieu. Thank you, Madam Chair, and ranking member, for 
holding this hearing.
    There have been a series of allegations between Qatar and 
the countries who are imposing a blockade, and it is hard for 
me to figure out what is true and what is false.
    But let me say what I do see. I do see a blockade that has 
resulted in some cruel consequences. From what I have read, you 
have families now being separated based on national origin, and 
that to me is highly troubling.
    I also see a Trump administration that is sending very 
mixed signals. At the same time, the Secretary of State is 
saying de-escalate, do not blockade, you have the President 
doing the opposite, essentially claiming credit for this 
blockade. Then you have also the United States sending $12 
billion worth of fighter jets to Qatar. I would love to see the 
panel clarify that, and I want you to tell us not only what our 
policy toward Qatar should be, but what it actually is right 
now.
    I yield back.
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Issa, for 1 minute.
    Mr. Issa. Thank you, Madam Chair.
    It seems like only yesterday that the President said, You 
are either with us or against us. And the world said, oh, it is 
too simple. But I think as we evaluate Qatar and the other Gulf 
states, we have to ask that basic question is, is Qatar with 
us? Are they moving toward being more with us? Are they 
cooperating? Are they moving toward Iran? Are they moving away 
from the U.S.?
    These are questions that I believe that we are going to be 
asking today that I am hoping to hear throughout the day, 
because I believe that although you are either with us or 
against us, there are shades of gray in all of our allies in 
the region.
    It is clear that Turkey has been moving away from us since 
2003. It is clear that Qatar has not been the best of actors 
when it comes to taking away funding from those who support 
terrorism, and it is clear that if they are moving with us, we 
need to have that demonstrated just as we asked Saudi Arabia, 
the United Arab Emirates and others to demonstrate on a regular 
basis.
    Thank you, Madam Chair. I yield back.
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Meeks, for 1 minute.
    Mr. Meeks. Thank you, Madam Chair.
    And I would want to join with the statement of Mr. Lieu. I 
think what we have to talk about here is the issue of fairness, 
and we need to make sure, I think, that when you talk about 
Qatar and the other countries in the region, we as the United 
States, I don't think, should be picking and choosing. We 
should be talking, because we need them all, and we need to 
figure out how we work collectively together.
    Qatar has been--I think it is clear, they have shown that 
they have done some things that have very good for the United 
States with our military base, trying to make sure that working 
with us in regards to the war on terror.
    And I think what needs to happen here, and especially if 
you talk about Qatar, we need to bring in as a committee the 
individuals from both the Bush administration and the Obama 
administration, because there is deep dialogue and conversation 
that we could have with them to talk about the region and the 
people that they have asked, Qatar being one, to do certain 
things on behalf of the United States. And if that is the case, 
then those individuals should not be held responsible if they 
are working cooperatively with us.
    So I look forward to hearing the testimony from the 
witnesses, and I think that we just need to make sure that we 
have a level playing field here.
    Mrs. Wagner. Thank you, Mr. Meeks, for your opening 
statement.
    We will now turn to our witnesses. I would, first, like to 
welcome back Mr. Jonathan Schanzer, who is the senior vice 
president of research for the Foundation for Defense of 
Democracies. Dr. Schanzer serves as a counterterrorism analyst 
at the Department of Treasury, and prior to that, worked as a 
research fellow at the Washington Institute for Near East 
Policy. Welcome back, Dr. Schanzer.
    I would also like to welcome back Dr. Matthew Levitt, who 
directs the Stein Program on Counterterrorism and Intelligence 
at the Washington Institute for Near East Policy. Previously, 
Dr. Levitt served as the Deputy Assistant Secretary for 
Intelligence and Analysis at the U.S. Department of Treasury, 
and before that, as an FBI counterterrorism analyst. We are 
glad to have you back with us today, Dr. Levitt.
    Finally, I would like to welcome Ilan Goldenberg, who is a 
senior fellow and director of the Middle East Security Program 
at the Center for a New American Security.
    Prior to CNAS, Mr. Goldenberg served as the chief of staff 
of a special envoy for Israeli-Palestinian negotiations at the 
U.S. Department of State. From 2012 to 2013, Mr. Goldenberg 
served as a senior professional staff member on the Senate 
Foreign Relations Committee covering Middle East issues. In 
that capacity, he acted as one of the lead drafters of the 
Syria Transition Support Act, which provided additional 
authorities to arm the Syrian opposition. The bill passed the 
Senate Foreign Relations Committee in May 2013. And I thank you 
for being here with us today.
    Dr. Schanzer, we will begin with you for your opening 
statement.

 STATEMENT OF JONATHAN SCHANZER, PH.D., SENIOR VICE PRESIDENT, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Madam Chairman, Ranking Member Deutch, and 
members of the subcommittee, on behalf of the Foundation for 
Defense of Democracies, thank you for the opportunity to 
testify.
    As many of you know, FDD has been producing research and 
analysis on Qatar since the eruption of the Arab Spring in 
2011. Our critique has been consistent. We have pointed to 
Qatari support for Hamas, the Taliban, jihadists in Syria, 
jihadists in Libya and the Muslim Brotherhood. We have been 
critical of Qatar for the invective broadcast on state-owned Al 
Jazeera. We have tracked the many reports suggesting that Qatar 
paid ransom to terrorism groups, and we have noted through the 
work of my colleague, David Andrew Weinberg, that Qatar has 
failed to take action against U.S. and U.N.-designated 
terrorist financiers. In my written testimony, I document these 
problems, and I am happy to discuss them further. But for a 
moment, I would like to address how Qatar has responded to the 
allegations against it.
    After ignoring criticism from think tanks like FDD for the 
better part of a decade, Qatar now claims it is being unfairly 
singled out. To be sure, the other Gulf countries have their 
problems. A recent State Department report noted that U.N.-
designated terrorist financiers continue to operate in Kuwait; 
Saudi Arabia continues to finance the spread of Wahhabism; and 
the entire Gulf suffers from a democracy deficit.
    But to understand why Qatar is identified first among Gulf 
states for terrorism financing, just imagine for a moment that 
you are a policeman, and you have just watched five cars speed 
past you going 80 miles per hour. And zooming past them is a 
red Ferrari going 90 miles an hour. Which car would you pull 
over? Well, that Ferrari is Qatar. Indeed, Qatar support is 
overt. It is egregious, and it is brazen.
    As the Gulf crisis has dragged on, Qatar has also been 
defiant, insisting its definition of terrorism differs from 
that of its critics. This is a particularly poor defense from a 
country claiming to be an American ally in the war on 
terrorism. As for the current crisis between Qatar and its 
neighbors, the Saudis and the Emiratis have been engaged in 
serious competition with Qatar for years. They attempt to outdo 
one another through foreign investment, domestic businesses, 
media interests, lobbying in western capitals, and other soft 
power.
    Since the Arab Spring, however, that rivalry has boiled 
over. Both sides have thrown their support behind various 
proxies representing their interests in the Middle East. The 
Qataris back the Muslim Brotherhood and other Islamist actors, 
and for their part, the Saudis and the Emiratis are working to 
preserve the Arab world order, pushing for stability at the 
expense of the possibility for reform. These two visions of the 
Middle East are fundamentally at odds with one another.
    The wise U.S. policy is not to back one Gulf state or 
another. We must rather pursue policies ensuring that terrorism 
financing in the Gulf comes to an end.
    I offer you the following suggestions: First, Congress 
should assess whether Qatar should continue to host Al Udeid, 
our most significant air base in the Middle East. Fighting our 
war on terrorism from Qatar sends a convoluted message to our 
allies in the region.
    Congress should work with the Justice Department to ensure 
that Qatar not only adopts laws to combat terrorism financing, 
but also fully implements them.
    Congress should consider passing the bipartisan Stop 
Terrorist Operational Resources and Money, or STORM Act, of 
2017. The bill, which was introduced in the Senate and not yet 
in the House, could label Qatar and other countries as 
Jurisdictions of Terrorism Financing Concern.
    Congress should press the State Department, pursuant to the 
State Department Authorization Act, to issue its report on 
which States paid ransom to terrorists over the last year. 
Congress should press for full implementation of the Export 
Administration Act, subjecting countries like Qatar that host 
terrorist operatives to certain licensing requirements for 
dual-use goods.
    Congress, of course, must continue to monitor Qatar's 
neighbors. Indeed, even if Qatar's problems were resolved 
tomorrow, the Gulf would remain an area of significant concern 
for terrorism finance.
    Finally, I believe it is time we have a frank discussion 
about Gulf money in Washington. Those who feed from this trough 
are often unable to engage honestly about the policies and 
behaviors of their benefactors, even when they fly in the face 
of U.S. interests. Indeed, I would be curious to hear how many 
of you have been approached by lobbyists since the Gulf crisis 
began, let alone in the lead up to today's hearing.
    There are issues that I did not address in this testimony. 
If I miss anything you wish to discuss, I am happy to answer 
your questions. And on behalf of Foundation for Defense of 
Democracies, I thank you again for inviting me to testify.
    [The prepared statement of Mr. Schanzer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mrs. Wagner. Thank you, Dr. Schanzer.
    Dr. Levitt, you are recognized for your opening statement.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR AND FROMER-WEXLER 
FELLOW, STEIN PROGRAM ON COUNTERTERRORISM AND INTELLIGENCE, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Levitt. Thank you, Madam Chairman, Ranking Member 
Deutch, members of the subcommittee. Thank you for the 
opportunity to appear before you and assess the U.S.-Qatar 
relationship and Qatari counterterrorism efforts to date.
    Qatar has been a long-time ally of the United States and 
hosts the largest U.S. military base in the Middle East. But 
the U.S. has also long criticized the Qatari Government for its 
lax counterterrorism policies; in particular, shortcomings 
regarding efforts to combat terror financing.
    Moving forward, it is critical to bring this Gulf crisis to 
a close, and the best way to do that would be to find face 
saving but substantive and verifiable ways for Qatar to address 
the most serious shortcomings in its counterterrorism and 
counter extremism posture. Some of the recent accusations made 
against Qatar are exaggerated, but many of the claims against 
Qatar are substantive and focus on long-simmering issues that 
Doha should have addressed a long time ago.
    In recent years, Qatar has maintained an open-door policy 
for a wide range of Islamist extremism groups from Hamas to the 
Taliban and others. Most disturbing, however, is the tolerance 
for fundraising in support for al-Qaeda's Syria branch, Al-
Nusra. While Qatar has made previous efforts to halt terror 
financing, the efficacy of these efforts is questionable.
    For example, in 2014, the State Department credited Qatar 
with shutting down Saad al-Kaabis online fundraising platform 
for al-Qaeda and Syria called Madad Ahl al-Sham. But the 
following year, the U.S. Treasury designated Al-Kaabi, who was 
still operating as a financial supporter of al-Qaeda and al-
Qaeda-Syrian affiliate, the Al-Nusra front. Al-Kaabi came up 
again in the context of a 2017 designation of a Kuwait-based 
terror financier, Mohammad al-Anizi. Evidently, Al-Kaabi 
continued to provide funding for Nusra even after Qatar 
supposedly shut down its fundraising platform in 2014, 3 years 
earlier, putting a pretty big question mark over the integrity 
of Qatar's measures to stop terror financing.
    Doha has been particularly sketchy on the issue of the 
prosecution of terrorism financiers in Qatari courts. According 
to the State Department's 2015 country reports, Doha had made 
efforts to prosecute significant terrorist financiers. As of 
2016, Qatar had prosecuted five terrorist financiers: Ibrahim 
al-Bakr, Saad al-Kaabi, Abd al-Latif al Kawari, Abd al-Rahman 
al-Nuaymi, and Khalifa al-Subaiey
    It is now clear that of these, two were acquitted, one was 
convicted but acquitted on appeal, and one was convicted in 
absentia. As a result, none were in jail when the current 
inter-Gulf spat broke out. The ones still resident in Qatar are 
reportedly under surveillance.
    According to recent reports, some new arrests may have been 
made since the current crisis began, likely involving some of 
those previously tried in Qatari courts. Qatar's lack of 
transparency about these cases led to much speculation about 
the country's commitment to these cases. And it is worth noting 
that just recently, the director of the Qatari Government 
communications office said, and I quote, ``All individuals with 
links to terrorism Qatar have been prosecuted,'' which would 
mean that the total number of suspects is five, which is not 
the case.
    Let me give you just a couple of examples of this odd 
history. This would have been the second time that Ibrahim al-
Bakr was convicted following his 2000 arrest, in which he was 
subsequently released from prison after he promised not to do 
terrorist activity in Qatar.
    Or consider Khalifa al-Subaiey, who was originally arrested 
in January 2008 in Bahrain for financing terrorism, undergoing 
terrorist training, facilitating the travel of others abroad to 
receive terrorist training and more.
    He was arrested again in March 2008 by Qatar and served a 
6-month term in prison. He was supposedly under surveillance 
after he was released. But in 2015, the U.N. Committee on Al-
Qaida Sanctions updated his listing with new information, which 
is no small matter, because it required a new vote of the full 
U.N. Security Council, and reported that al-Subaiey had resumed 
terrorist activity.
    According to the committee, ``After his release, al-Subaiey 
reconnected with al-Qaeda financiers and facilitators in the 
Middle East and resumed organizing funds and support of al-
Qaeda.''
    It is important to note that while terror finance 
prosecutions are difficult cases and acquittals are part of a 
normally functioning justice system, these are not the only 
tools available for Qatari officials to deal with financiers 
effectively serving as regional bundlers of terror funding from 
donors throughout the region to al-Qaeda and Syria in 
particular.
    The first big test for Qatar will be to populate the 
domestic designation list just created by Qatar's Emir and to 
put people on that list.
    The U.S. just signed an MOU on counter terror financing 
with Qatar. It created a whole bunch of new authorities. These 
authorities need to be implemented in full.
    Qatar has a history of past counterterrorism and 
counterterrorism-related laws in 2004, 2006, 2010, 2014. They 
were either not implemented, or not implemented in full, and 
so, therefore, this time, we have to make sure that these are 
done and done effectively.
    Moving forward, the most important thing is that Qatar 
populates this designation list in a transparent manner, 
starting with those individuals already designated by the U.S. 
Treasury and United Nations, who remain at large, and may be 
continuing to fund and provide material support to al-Qaeda and 
other terrorist groups.
    There are several other recommendations I make in my 
written statement. I thank you again for the opportunity to 
testify before you today, and look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Levitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mrs. Wagner. Thank you, Dr. Levitt, for your testimony.
    I now turn to Mr. Goldenberg for your opening statement.

 STATEMENT OF MR. ILAN GOLDENBERG, SENIOR FELLOW AND DIRECTOR, 
    MIDDLE EAST SECURITY PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Mr. Goldenberg. Madam Chairman, Ranking Member Deutch, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on the U.S.-Qatar relationship and 
the implications of the current divisions within the Gulf 
Cooperation Council. My objective with this testimony is not to 
recount the various moves and countermoves each side has made 
in the past few weeks since the crisis erupted. Instead, I will 
provide some context as to what created this situation, the 
implications for U.S. interests, and the possible way ahead.
    Qatar is a complex American partner, to say the least. On 
the one hand, it has pursued a policy that has included 
building relations with a number of actors the United States 
finds problematic, including extremist groups in Syria, the 
Taliban, Hamas, and the Muslim Brotherhood. This approach has 
been part of an independent, and sometimes provocative Qatari 
foreign policy that has chaffed on some of its Gulf neighbors 
and, in some instances, these neighbors have viewed Qatari 
reactions as interfering in their own internal affairs, which 
infuriated them and been a major reason for the recent actions.
    From an American perspective, the Qatari policy in Syria 
and the slow response to terror financing were probably most 
problematic. When the Syrian civil war erupted, Qatar was on 
the forefront in providing financial aid and weaponry to the 
Syrian opposition groups of all stripes with little control or 
oversight. The Qataris were far from alone in committing this 
mistake as a number of other Gulf state-actors, as well as 
Turkey also pursued an anybody-but-Assad policy without fully 
vetting some of these anybodies.
    Certainly, the United States made its own share of mistakes 
during this time period. While Qatar and Turkey in particular 
were the most aggressive in funding some of the more 
ideologically extremist groups, including al-Qaeda affiliate, 
Jebhat al-Nusra, and we are still living with these mistakes in 
Syria and will be for years to come.
    But on some issues, Qatar has been a useful partner. Qatar 
hosts a critical U.S. air base with more than 10,000 American 
troops. Al Udeid Air Base is a central node from which the 
United States conducts air operations in Iraq, Syria, and 
Afghanistan, as well as other operations across the Middle 
East.
    The bases hosted U.S. military aircraft for over 15 years, 
and during that time, has been a reliable partner, allowing 
access for a broad array of military operations.
    Moreover, Qatar's flexible approach to problematic actors 
has, at times, made it a useful connector when the diplomacy 
inevitably requires negotiation and engagement with unsavory 
characters.
    Take for example, Qatar's relationship with Hamas and the 
aid it provides in Gaza. On the one hand, both the United 
States and Israel designated Hamas as a terrorist organization. 
On the other, Israel has cooperated quietly with Qatar in 
recent years to ensure financial assistance gets into Gaza in 
order to try to improve the situation on the ground and avoid 
another conflict. Whether one chooses to view Qatar positively 
or negatively, what is clear is that the inter-GCC split that 
has emerged in recent weeks has not been good for U.S. 
interests. Only 2 weeks after President Trump visited Riyadh to 
unify the Arab world behind the common objectives of countering 
extremism and pushing back on Iran, America's Gulf allies have 
launched into an internal feud that has largely distracted them 
and us.
    Meanwhile, the split has created new opportunities for 
Russia and Iran to increase their influence in the region. 
Going forward, the Trump administration should take a number of 
steps.
    First, settle on one consistent message and approach 
instead of open breaks between the President and the Secretary 
of State, which only cause confusion and undermine our ability 
to mediate in this crisis.
    Second, move away from viewing the Middle East through a 
pure black and white prism. The Trump administration focused so 
heavily on unifying and backing the Sunni, Arab states, they 
fail to recognize the internal splits among them. This 
inadvertently gave a green light to some of our Gulf partners 
to move ahead with these actions against Qatar.
    Third, settle in for the long haul, as this crisis is not 
going to be solved any time soon. We should clearly signal to 
our partners that we are still focused on the challenges posed 
by ISIS and Iran, and we expect them to do the same instead of 
focusing all their diplomatic energy on trying to convince 
Washington to take their side in this fight.
    Fourth, encourage de-escalation on all sides by at least 
getting them all to tone down their public rhetoric while 
emphasizing that the U.S. is willing to play a constructive 
mediating role.
    However, it is ultimately an inter-Arab disagreement that 
they will need to be out in front in solving.
    And, finally, fifth, I think we should use this crisis as 
an opportunity to engage with all the countries of the GCC to 
shine more of a light on the problem of terror financing. As 
some of the other witnesses and members have said, Qatar 
certainly is a major problematic actor in this space, but it is 
far from the only one, and this could actually be an 
opportunity, in terms of this crisis, to actually push all of 
them to be better on this issue.
    So thank you very much, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Goldenberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mrs. Wagner. Thank you, Mr. Goldenberg.
    And I thank all of our witnesses for their opening 
statements.
    I would like to open up my line of questioning by 
recognizing the fact that I think this hearing is very timely. 
Both Qatar and the Gulf countries have been important partners, 
and we would like to see a constructive, honest resolution to 
the crisis.
    Qatar is a military ally of the United States, but has 
simultaneously supported Hamas and al-Qaeda. We have a role in 
easing tensions in the region, but not at the expense of our 
national security interests and our values. Qatar must cut ties 
with terrorists; our allies cannot provide support to our 
enemies.
    Dr. Schanzer, I have no sympathy for supporters of Hamas, 
nor do you.
    You have called the U.S. base in Qatar an ``insane 
arrangement,'' I think is the quote. Do you believe the base 
location is dangerous? And how would you propose safely moving 
the base in such a way that doesn't compromise operations in 
the region?
    Mr. Schanzer. Congresswoman Wagner, thank you for the 
question. Look, I would probably put it this way: First of all, 
it is an insane arrangement. The idea that you have this 
forward air base that is conducting the most crucial operations 
in the war on terrorism, and that is it mere miles away from 
the Taliban presence, Hamas presence where there are designated 
terror financiers from the Nusra front running around in Doha. 
This sends the wrong message. It sends the wrong message to the 
United States and to our allies in the coalition to fight ISIS 
and al-Qaeda. It sends the wrong message to our Middle East 
allies as well.
    In other words, when we tell them that we are going to hold 
them to account for their terror financing issues, and then 
they look at what is going on in Qatar, the optics, I think, 
are really rather terrible.
    As for the safety of our troops, so far I would say, so 
good. We have not had incidents where it appears that our 
troops are being threatened. I would actually say that is not 
the case with Incirlik Air Base in Turkey, which is another 
country that supports some of these terror groups.
    But at the end of the day, our recommendation has been that 
we begin to assess what it would take to move the base. Maybe 
not all of it. Maybe not all of it at once, but we need to take 
a look regionally at the other areas where we may be able to 
base some of these assets and to signal to the Qataris that we 
are willing to move. We don't need to do it. We may decide at 
the end of the day, the Pentagon may decide they can't afford 
to do it, it is too difficult, but in the meantime, it is 
important to message to the appropriate people in Qatar that we 
are willing to look at this problem and to reallocate assets as 
necessary.
    Mrs. Wagner. Thank you.
    Dr. Levitt, can you discuss what actions the Saudis and 
other Gulf states have taken to combat terror financing that 
the Qataris have not?
    Mr. Levitt. Thank you for the question. You know, terror 
financing is a problem throughout the Gulf, and it took the 
Saudis some time to get on top of this problem.
    For a long time, U.S. Treasury pointed to Saudi Arabia as 
the epicenter of this problem, but the Saudis turned a corner. 
There is more that they can do, but the Saudis now run 
intelligence operations. They prosecute people. They work with 
us in designating people. There have even been joint U.S.-Saudi 
designations including of charities and individuals in Saudi 
Arabia.
    That is domestically difficult politically for them, but 
they have done it. There is more that they can do, but we now 
tend to point to others within the GCC toward Saudi Arabia, and 
we are trying to show them what we would like them--the types 
of things we would like to do more.
    There is an irony that Kuwait is the country that is kind 
of playing the middleman on this, and Kuwait is often described 
as being just as bad as Qatar on terror finance. And that is 
something that we need to recognize as well. But the fact is 
that there are things that Qatar should have done a long time 
ago, and that they have not done, and that we have, frankly, 
tolerated them not doing. And the overt financing of 
effectively the most important al-Qaeda entity in the world, 
al-Qaeda and Saudi Arabia, is completely beyond the pale.
    Mrs. Wagner. Thank you.
    Mr. Goldenberg, in my limited time here, one of the demands 
from the Gulf states was that Qatar must close down the Turkish 
military base. I get that they are concerned about the Muslim 
Brotherhood's influence. But how important do you think this 
demand is in terms of regional stability and security, and is 
this one that should be dropped?
    Mr. Goldenberg. Thank you, Congresswoman, for the question.
    I think that on the list of demands, the Turkish air base 
is probably lower--the base is lower on the list of demands 
that the Emiratis and the Saudis and others are leveling. In 
most conversations, what you hear them really focusing on is, 
more has to do with what the Qataris might be doing in the 
press, than some of the sort of the personal attacks at certain 
point that the different sides are launching at each other 
right now. I think that is much more the source of the issue, 
and the terror financing issue that we have been talking about 
has been much more central to the debate than this Turkish 
base, that, frankly, there have been already a move for the 
Turks to deploy some forces there a couple of years ago, and 
then when this crisis erupted, they moved everything up; they 
moved it very quickly to sort of a symbolic step. It is a good 
example of an opportunity, or the crisis, and the move has 
actually backfired on some of our partners, if what they were 
trying to do was isolate Qatar. What they actually managed to 
do is strengthen the Turkey-Qatar relationship instead.
    So I would put this one probably as not as central as some 
of the other questions that have been out there before, but 
something that we will see as time goes on if they walk away 
from.
    Mrs. Wagner. Thank you for that insight. My time has 
elapsed.
    I now recognize the ranking member, Mr. Deutch, for 5 
minutes.
    Mr. Deutch. Thank you, Madam Chairman.
    Mr. Goldenberg, you referred to the flexible approach to 
problematic actors. And--so the question I have for you and for 
the panel is, how can--what is that? How is it--here is how it 
is characterized. Right? It is characterized as, well, yes, we 
know that Hamas is a terrorist organization, but if our ally 
has a relationship, then perhaps that can help us somehow.
    Dr. Schanzer, I presume, would argue that Hamas is Hamas, 
and we should have nothing to do with them and our allies 
shouldn't either. Yet, the question is what does that flexible 
approach get us?
    And, Dr. Schanzer, if Qatar acted to move all of these 
terrorist groups out of Qatar, out of Doha altogether, where do 
they go? And to Mr. Goldenberg's point, is there some--is there 
some benefit to having them there instead of in the arms of 
ISIS or in Tehran?
    Mr. Goldenberg, can you help us sort this out?
    Mr. Goldenberg. Sure. Thank you, Ranking Member Deutch.
    And exactly, I think this is precisely sort of the point. 
It is complicated, but what I would say is--well, maybe I will 
start with the example of Hamas. And I will actually quote an 
Israeli former head of research, Josi Kuppelwieser, the former 
head of research for Israel's military intelligence who has 
been up here a lot, I believe, also in the past talking about 
incitements saying, just a year ago publicly, nobody else is 
ready to help out but Qatar when it comes to Gaza.
    So here is a perfect example of the situation we are 
dealing with. We have had three wars with Israel and Hamas over 
the few years in Gaza, with large casualties for Palestinians, 
large casualties for the IDF. And the Israelis have started to 
realize, well, maybe we should not be--sort of this approach 
was trying to squeeze Hamas and Gaza doesn't seem to be 
working. So maybe we need to think about a different approach 
and trying to at least alleviate the humanitarian situation and 
find ways to quietly establish channels with these guys so as 
to keep the situation calm and not have another conflict.
    Who is the only real channel that they have to do that, the 
Qataris. And so they have been using that channel, and we have 
been helping in some cases to facilitate that channel. So that 
is an example.
    And so, if Hamas was instead sitting in Tehran, which is a 
likely outcome of what would happen if they were kicked out of 
Doha, then I think what you would see is no ability to actually 
communicate in that way, and probably Hamas taking more 
aggressive action and less ability to squeeze them.
    So this isn't to justify the Qatari relationship with 
Hamas. I don't agree with that, necessarily. I think it is a 
problem. It is not something the U.S. should not have any kind 
of direct relationship with Hamas. Hamas is a terrorist 
organization bent on the destruction of Israel. But we sort of 
found that this approach by the Qataris at least has some 
benefits, and we should at least recognize that as opposed to 
just vilifying them, because we would like them to behave 
differently, but at the same time, they end up--when we ask 
them to do things that sometime are in our interest, they are 
able to push certain levers we are not able.
    Mr. Deutch. Dr. Schanzer?
    Mr. Schanzer. Thank you, Congressman Deutch.
    I am not even sure where to begin. In terms of the 
potential benefits from Qatar working with Hamas or allowing 
Hamas to operate out of there, it is sort of a counterfactual. 
We have yet to actually see what the benefits are, other than 
the fact that the Israelis have allowed the Qataris to provide 
assistance to Gaza, not to Hamas, but to the people of Gaza for 
reconstruction. On that, I think the Israelis would agree that 
it has been positive. I think we would all agree that it has 
helped, perhaps, forestall a major humanitarian disaster, and I 
think for that we should be thankful. But from there, I do have 
to question.
    I mean, it is not like Hamas doesn't have other places 
where it can operate. It has base in Turkey, for example. It 
has its home base in the Gaza strip. It operates out of the 
West Bank. It operates out of Sudan and Lebanon. It has a major 
presence across the Middle East. Why does it have to operate 
inside Doha where it gets a certain amount of legitimacy for 
this?
    And then perhaps one other thing to note here is that when 
people talk about how Qatar may have helped, perhaps, bring the 
conflict to an end in 2014, if you speak to the other actors in 
the region, they will tell you, whether it is the Egyptians or 
the Israelis or even others, they will tell you that is was 
actually the Qataris and the Turks that forestalled an end to 
the conflict. That they continued to negotiate on behalf of 
Hamas, and I think that they probably, in doing so, probably 
led to the loss of many, many more lives.
    Mr. Deutch. Unfortunately, I am out of time. Thank you.
    I yield back.
    Mrs. Wagner. The gentleman's time has expired.
    The Chair now recognizes the gentleman from California, Mr. 
Cook, for 5 minutes.
    Mr. Cook. Thank you, Madam Chair.
    In my opening remarks, I talked about this news story about 
the North Koreans working on a World Cup and figures that I 
read were about 3,000.
    And in the article it talked about the possibility of 
whether they can be militarized. And this is a scenario that is 
kind of scary. We talk about the fact that we have our largest 
military base there, which is, as you said, insane.
    Can you just comment on that possibility where this is 
another dimension, another threat to this? Because every week 
it seems we have to re-evaluate which is the number one enemy?
    Dr. Levitt, could you start?
    Mr. Levitt. So I haven't seen this report, so I don't want 
to comment on a report I haven't seen, other than to say the 
North Korea issue is a very important pressing issue. In some 
ways, it is much more important than this one, to be sure. But 
in general, I think we need to learn ways to be able to 
leverage conversation, and if necessary, pressure on Qatar on a 
wide array of issues that we have with them. And this would be 
one more. And you have to do that in a way that is flexible, 
because we have many very positive relationships with Qatar.
    I would argue the way to be flexible, though, is not to say 
it is perfectly okay to have X number of North Koreans in the 
country working in ways we don't know, or to host anybody you 
want from Hamas. Certainly, for example, I would make a 
difference between hosting certain leaders of Hamas who are 
sitting in a hotel room, as opposed to people like Saad al-
Hariri, who is now believed to be in Lebanon but was sitting 
comfortably in Qatar for quite some time where he was literally 
plotting attacks against Israelis civilians. That should be 
completely beyond the pale.
    Again, I haven't seen this report, but this would be 
another thing that we have to figure out how do we have 
multiple conversations with a country at the same time on some 
issues you have agreement, on some issues you have great 
disagreement. I think we have done that very poorly across 
administrations.
    Mr. Cook. Okay. Any others want to comment on this? Doctor?
    Mr. Schanzer. I will comment for a moment, sir. I think it 
is important to talk about when you talk about foreign workers 
in Qatar. The 3,000 that you mentioned are actually--it is a 
very small number, relatively speaking, in relation to this 
800,000-plus foreign workers that are active right now in 
Qatar.
    I have seen the reports of the North Korean workers there. 
The concern actually was not that they would be potentially 
operational, but rather, that they were effectively slave 
labor.
    Mr. Cook. Yes, exactly.
    Mr. Schanzer. It was given to the Qataris, and that 
whatever they were being paid was being remitted back to North 
Korea, and that this was an inadvertent way, or a backdoor way 
of financing North Korea.
    So these are the concerns that we have. I believe that the 
Qataris have addressed this problem last I heard. I have not 
seen a lot of updates on this.
    Mr. Cook. The reason I ask that question, because we are 
having the debate and everything else about the sanctions 
against North Korea, and this might be another variable that 
would be included in this.
    Any comments on what happened last year? I was over in that 
area, and the State Department was, quite frankly, at that 
time--this is about a year ago, maybe a year and a half--they 
were arguing on behalf of Qatar for the upgrade for the F-15s. 
They thought it would be in the best interest. And I was kind 
of shocked at that in terms of foreign military sales.
    Do you have any comment on that? I almost--when I was 
there, viewed it as almost Middle East Stockholm syndrome, 
because they were very, very supportive of Qatar with all its 
problems, and it kind of shocked me at least from a military 
standpoint.
    Doctor? Either one?
    Mr. Goldenberg. Sir, I actually had served in the Pentagon 
for a few years on the Middle East issues, so I can maybe talk 
a little about this. From my perspective, look, I mean, this is 
a problem we have with all the Gulf states. On the one hand, I 
mean, the arm sales are very useful to our industry----
    Mr. Cook. Yes. I understand that. But I am talking about 
the F-15 upgrade. This is a significant--I understand your 
expertise in the Pentagon. I have spent a few years in the 
military myself, although I certainly cannot fly an airplane. 
But in regards to that particular weapon system, which is kind 
of more sophisticated than some of the others.
    Mr. Goldenberg. Well, sir, I was just going to say that my 
issue with--I can't tell you about that specific weapon system, 
and that specific upgrade. I can tell you that, generally, I 
think we have an issue where we probably sell these countries 
too much weaponry because they have the money. And what they 
really need is, sort of, lower-end technology to deal with 
counterterrorism problems and things like that, which are much 
more important, I think, for their interest and ours.
    Mr. Cook. Thank you very much. I yield back.
    Mrs. Wagner. The gentleman's time expired.
    The Chair now recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Madam Chair.
    On June 9, our Secretary of State, Rex Tillerson, stated, 
``We call on the king of Saudi Arabia, the United Arab 
Emirates, Bahrain, and Egypt to ease the blockade on Qatar.'' 
Later that same exact day, Donald Trump referred to the 
decision to initiate the blockade as hard but necessary. And 
then, as you know, a few days later, the United States sells 
$12 million of fighter jets to Qatar.
    So my question is to the panel, what is your understanding 
of the current U.S. position on this so-called blockade? Do we 
support it? Do we oppose it? What is the answer to that?
    Mr. Goldenberg. I will start, I guess. And I think others 
also have comments.
    From my perspective, I think we have a disagreement inside 
the administration, and for the most part, have seen this 
disagreement. I am not 100 percent sure. I do think that what 
it does do, it causes some confusion, because you can't 
really--Secretary Tillerson is clearly trying to act as a 
mediator, and he is going out there and trying to do that. He 
had a trip just last week, or a couple of weeks back to do 
that. And meanwhile, you have some of these other comments 
coming from elsewhere, so the Qataris will then go to the 
Secretary of State, and the Secretary of Defense would seem to 
have positions more in line with their own, and the Emiratis 
and the Saudis and others will go the White House, who seems to 
have positions more in line with their own. And that is really 
not an effective way to sort of try to conduct and mediate this 
conflict. I think it is causing some problems.
    So I would say it is ambiguous right now what the policy 
is.
    Mr. Lieu. So let me ask you another question. There have 
been various media reports that the Trump organization has lots 
of businesses in Saudi Arabia and some of these other countries 
but not Qatar. Do you think that plays any role, or could it?
    Mr. Goldenberg. Honestly, Congressman, I don't know. I 
don't know their motivation, what is behind it.
    Mr. Lieu. That is fine. I will ask you another question.
    There have been various reports that Jared Kushner 
basically got stiffed by some folks in Qatar. Do you think this 
could play any role in that?
    Mr. Goldenberg. It is certainly a possibility, but it is 
not something that I, again, have any knowledge of.
    Mr. Lieu. Thank you. Let me move on to a question I had 
mentioned in my opening statement.
    Are there families being separated because of this so-
called blockade based on their national origin, or any panel 
member?
    Mr. Goldenberg. My understanding is at least that, yes, 
there are issues where the Qataris and the--we have a lot of 
people who are moving between the Qataris, the Emiratis and the 
various GCC states, and so you are going to end up in 
situations where all GC--all, I believe, Qatari nationals had 2 
weeks to get out of certain GCC states.
    Mr. Lieu. So you would be separating husband and wife from 
each other if they happen to be a different national origins, 
correct?
    Mr. Goldenberg. That is what I have seen in the press. 
Beyond that, you know--and I have heard concerns about that, 
but I can't really speak for their policy, obviously.
    Mr. Lieu. Okay.
    I have met with various representatives from these Gulf 
state countries, including Saudi Arabia and Qatar. One of the 
things that the residents from Qatar said is with respect to 
Taliban, they said it is true there is a Taliban office in 
Qatar, but that the U.S. asked them to open it. Is that true? 
Anyone on the panel.
    Mr. Schanzer. I will maybe take a first stab at that one.
    As I understand it, there was a Taliban presence that was 
already there in Doha, that there were representatives of the 
Taliban who had come there before the opening of this office. 
Then came the initiative by the Obama administration to 
negotiate with the Taliban in an attempt to find pragmatic 
members of the group. And so, they essentially authorized what 
became the Taliban Embassy.
    As I mentioned in my testimony, this was something that was 
very frustrating to those within the Afghan Government, who 
were struggling for their own recognition of legitimacy. They 
felt that this undermined them, and I have heard this from a 
number of U.S. officials on both sides of the aisle.
    What happened after that was the trade for Bowe Bergdahl, 
the American serviceman who had gone missing in Afghanistan, 
and he was traded for the Taliban Five. This was facilitated by 
the Qataris. The Taliban Five are high ranking Taliban 
officials and operatives, ultimately came to Qatar as well, and 
so they augmented the presence that had already been there.
    And since that time, the concern has been not just that 
there has been an official presence of the Taliban inside Doha, 
but rather also Taliban officials, Taliban militants, have come 
in and they have reconnected with the Taliban Five and some of 
the others. So there is concern that it is not just that the 
presence that was first blessed by the Obama administration, 
but that there have been some operational concerns as well.
    Mr. Lieu. Thank you, and I yield back.
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Zeldin, for 5 minutes.
    Mr. Zeldin. Thank you, Madam Chairwoman.
    This is a question for anyone who is able to answer. Does 
Qatar view Hamas as a terrorist organization? Or I can--maybe a 
multiple choice, or does Qatar view Hamas as a legitimate 
resistance, or would you give it some other characterization? 
How does the Government of Qatar view Hamas?
    Mr. Schanzer. Maybe I will start. The Government of Qatar 
does not see Hamas as a terrorist organization. It sees the 
violence that Hamas carries out as being legitimate, and it 
continues to insist that overall, the critique that has been 
leveled at the Qataris over the last several weeks as this 
crisis has unfolded, they continue to say that they do not 
agree with the definition of terrorism that their critics are 
using.
    Again, I see this as a very poor defense. They know exactly 
how we view the problem, and they are allies of the United 
States. They are hosting our air base. They know the difference 
between right and wrong, at least in the way that the West 
views it, and they refuse to recognize it, and that is one of 
the problems that we have.
    And I think, maybe just a post script, that if this is the 
case with Hamas, who else might they view differently? How do 
they view the Taliban? We just talked about the base. How do 
they view the Nusra front? Do they see them as terrorists? 
Probably not. And so what we see is a growing list of actors 
where we would disagree on whether they are legitimate or 
illegitimate, terrorists or not terrorists.
    Mr. Zeldin. Does anyone disagree with that? What options do 
we have, if at all, to get Qatar to change their view of Hamas 
as a legitimate resistance?
    Mr. Levitt. Like in the first instance, there are already 
reports that Qatar has asked at least six Hamas members to 
leave the country. That is good. That means some pressure 
works. So long as there is no consequence, this is a no-brainer 
for Qatar. Qatar is a small but rich country, and if it wants 
to box out of its weight class, it can either spend money or do 
other things that make it more of a player. It has been able to 
make itself more of a player in part by reaching out to 
Islamist groups that are beyond the pale for most. And, 
therefore, being a key intermediary, we collectively, 
especially coming right after the European Court of Justice's 
ruling just now upholding the EU's designation of all of Hamas, 
not some wings and others but all of it, we in the West 
collectively need to make it clear to Qatar that hosting and 
providing services to a group that is committed to the 
destruction of a U.N. member state and to civilians is 
unacceptable.
    And I put that in a different basket from Qatar's support 
to citizens in Gaza, which the Israelis fully support. In fact, 
it is done through Israel. That is a different issue. If Qatar 
wants to be a responsible player in that regard, fine, but 
hosting and providing safe haven to the leaders of a U.S.- and 
EU-designated terrorist group is a problem.
    Mr. Zeldin. Has Qatar weighed in, to the best of your 
knowledge, with regards to the U.S. moving its Embassy from Tel 
Aviv to Jerusalem? Are you aware of the nature of Qatar helping 
in the mission to defeat ISIS?
    Mr. Goldenberg. Well, I think that, yes, in that Qatar 
hosts, you know, our forces at Al Udeid Air Base, which is 
where the--you know, we have the CAOC, which is the central 
coordinating function that then allows--basically is 
responsible for coordinating all of our operations in Iraq, 
Afghanistan, and Syria, and especially Iraq and Syria, where 
ISIS is primarily based, you know as a central element of our 
strategy, and you know I just would----
    Mr. Zeldin. I really should have clarified. I mean, other 
than the obvious that, you know, we have a base there, but the 
nature of these relationships with other terrorist 
organizations, and they are very welcoming to just about 
everyone, it seems, in the region.
    So, outside of the obvious, what other--what can we add, 
what could you add as far as Qatar's other efforts? Not 
supporting, not allowing us to operate there, but what else are 
they doing?
    Mr. Levitt. I am not entirely sure I understand the 
question, but Qatar is a member of the counter-ISIS coalition. 
Its commitment has been somewhat limited. It has flown some 
missions, but it has refused to drop bombs, so it has flown 
behind other airplanes in case something happens to them. That 
it is not nothing, but it is not as much as others. I think the 
biggest issue is that now across administrations of different 
political persuasions we have been more interested in getting 
another number to add to the number of coalition members adding 
Qatar without insisting that, to be a part of it, you also have 
to meet a certain threshold. And it seems crazy to me they 
should be able to be part of the counter-ISIL coalition while 
still supporting other equally dangerous radical Islamist 
groups like al-Qaeda in Syria.
    Mr. Zeldin. I would love to get into that further, but I 
notice that I am out of time, so I have to yield back.
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentlelady from Hawaii, Ms. 
Gabbard, for 5 minutes.
    Ms. Gabbard. Thank you.
    Thank you, gentlemen.
    I am wondering if you can address the double standard that 
exists and that we are confronted with with all of this 
attention being focused on Qatar with different members of the 
administration very strongly calling out Qatar for its support 
of terrorism, yet on the same--almost in the same breath 
embracing Saudi Arabia and lauding their counterterrorism 
efforts, when I think some of you have mentioned in your 
opening comments Saudi Arabia's long history of supporting 
terrorism and exporting the Wahhabi Salafist ideology around 
the world that really creates these fertile recruiting grounds 
for terrorist groups like al-Qaeda and ISIS--what to speak of 
Saudi Arabia and Turkey's support of different terrorist groups 
in places like Syria, Saudi support for al-Qaeda in Yemen and 
their fight in Yemen. So all of this attention is focused on 
Qatar with very little if no passing mention of Saudi Arabia's 
role in all of this.
    Mr. Schanzer. I want to make sure my colleague Matt Levitt 
gets a moment to speak, but maybe just a couple of quick 
thoughts. Number one, you mentioned Turkey. I think that 
probably a whole other hearing should be done on Turkey that 
the same sorts of behaviors that we are seeing exhibited by the 
Qataris we have seen with the Turks and we have seen them in 
very similar ways.
    In fact, I think it was just yesterday, I don't know if he 
is still there, but the President of Turkey, Mr. Erdogan, was 
in Doha, and they are strategic partners. And I think we need 
to address this. And I think I mentioned before that the 
Incirlik Air Base, we have very similar issues with Incirlik 
that we do with Al Udeid. I see them really as mirror images of 
one another. The Turks host a Hamas base. They have been known 
to open up their borders to allow for Nusrah fighters to go 
back and forth, possibly ISIS fighters, as well, so there is a 
lot of problems with the Turks that I think probably deserve 
some attention.
    Ms. Gabbard. I agree.
    Mr. Schanzer. Then I think the other thing that both Matt 
and I mentioned today is the problem of Kuwait. The fact that 
Kuwait has become a mediator in this is somewhat ridiculous, 
that the Kuwaitis have been identified time and again by our 
former and current colleagues at the Treasury Department that 
Kuwait is a huge problem when it comes to terror finance 
probably rivaling that of Qatar, and so that should be 
addressed.
    As for Saudi Arabia, I would agree with the assessment that 
it has turned a corner. It is not out of the woods, but it has 
gotten a lot better. It is not best in breed. I think that 
distinction probably goes to the Emirates right now in the Gulf 
states, but they still have their problems, too.
    What I started to say at the beginning of my testimony and 
prepared remarks is that all of these--the entire Gulf is a 
problematic region. I think the Saudis were seen as the number 
one producer of radicalism and radical ideology. I think it has 
been eclipsed, and as they are trying--it looks as though, 
right now, they are looking to get better at this. And they 
still have problems with teaching radicalism and spreading 
radicalism, but as they improve, we are seeing some of these 
other countries double down. And Qatar I think has really been 
the most prominent among them.
    Ms. Gabbard. I think--and I have got about a minute and a 
half if others want to comment--but the issue of Saudi Arabia, 
we have heard that, yes, they are making progress, and, yes, 
there is change occurring, but I and others have asked this 
administration for very specific examples, data, benchmarks, 
changes, and to date, we have not gotten any kind of specifics, 
either in writing or in person. And, frankly, what we have 
gotten is a lot of lip service. So, you know, the question of 
how long this has been going on with Saudi Arabia casts a huge 
amount of doubt on saying, yeah, okay, well we think they are 
improving in this.
    Mr. Levitt. I will just add that Qatar in the here and now, 
right now, is doing things that have to stop. There is no 
question----
    Ms. Gabbard. I agree.
    Mr. Levitt [continuing]. That the Saudis for a very long 
time did a whole lot of things that not only caused problems 
then but are still causing problems now. And I am not going 
make excuses for them. They have turned corners, and I can't 
explain why the administration wouldn't provide some 
information about that, which is not to say that there is not a 
lot more that they could do.
    But as several members of the committee have said, several 
of you have been approached by different members of GCC states 
recently, So have those of us in think tanks. And I have 
mentioned to some of my Saudi and Emirati colleagues in 
particular: Beware pushing too hard on general ideas of 
extremism, because it is not like you haven't had problems of 
your own. Beware of pushing too hard on the issue of the 
Taliban in Qatar, UAE, because for a period of time, Taliban 
officials were strolling into Dubai with suitcases of cash, and 
so long as that was invested in real estate, no one cared.
    So the UAE and the Saudis, despite what they have done in 
the past, have turned corners. We need Qatar to do the same. We 
shouldn't expect that Qatar will suddenly be perfect in the 
same way that its neighbors are not yet perfect, but we cannot 
tolerate some of the most egregious behavior that they have 
done even, as I said in written and oral testimony, some of the 
charges that have been arrayed against them are simply untrue, 
but some of them are very true.
    Ms. Gabbard. Thank you.
    Mrs. Wagner. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Florida, Mr. 
Mast, for, 5 minutes.
    Mr. Mast. I want to thank you for taking the time to come 
here and sit with us today. I want to get to something very 
quickly. You know, we have been discussing the support of 
terror from different actors. Terrorism--I have heard it said 
before, terrorism isn't an enemy. Terrorism is a tactic that is 
used by an enemy.
    So, to that end, I would like to hear from each one of you, 
what is it that you think is trying to be achieved by the 
tactic of supporting--by supporting that tactic, by supporting 
terror? What is the end that each one of you see as being 
played out?
    Mr. Levitt. So, as answered to another question, I think 
Qatar is trying to make itself a bigger player in the world 
stage than it otherwise would be by being a small peninsula, 
almost an island, of a very small population. A vast majority 
of people on the island are foreign workers. But it happens to 
be very, very wealthy, the wealthiest nation on planet earth 
per capita, and it has also found another way to kind of punch 
beyond its weight, and that is through making relationships 
with other Islamist groups that it has been able to use to its 
own benefit and sometimes being out to reach out to others and 
say: Hey, I can be a middle man for you too.
    That has proved to be very, very dangerous. And so Qatar 
has never had a situation where there was a cost to having the 
kind of relationship it wants and needs with us, which we would 
like to have with them too, at the same time they are having 
very close relationships with some of the worst of the worst.
    Mr. Mast. Mr. Schanzer? Mr. Goldenberg?
    Mr. Schanzer. I agree with Matt. I think that, overall, 
Qatar realizes that it is extremely vulnerable, that it is 
tiny, and that it doesn't have the means to push back on some 
of its very tough neighbors.
    It shares natural gas wealth with the Iranians, and they 
have to figure out how to get along. And so having some of 
these proxies available to them is a useful thing. By the way, 
so is having an American air base where they can sort of bare 
their teeth at the Iranians.
    But at the end of the day, what they are trying to do or 
what has happened over time is they have become very wealthy, 
and they have tried to use whatever means they have to purchase 
power. And so you see them buying up large chunks of London, 
large chunks of Washington. You see them paying for proxies 
across the Middle East, trying to push the Muslim Brotherhood 
into positions of power so that they, too, would be able to 
ride the waves of power. This is a lot of what drives them 
right now.I think they have taken this way too far. 
    Mr. Goldenberg. And just to add, and I agree a lot of what 
Jonathan and Matt have said, Qatar is also just traditionally 
pursued sort of a third way foreign policy in the Gulf. You 
know, a lot of the smaller Gulf states choose to align 
themselves with Saudi Arabia. Qatar basically, since 1995, when 
there was a turnover and a sort of a palace coup and the emir 
took over, the father of the current emir chose a different 
approach which involved not just going along with the Saudis. 
And if you are a very small country with a much bigger one 
sitting right next to you who sort of is running a lot of the 
region, if you are going to go with that contrary policy, you 
try to find every division that you can and every opportunity 
that you can to influence. And so it builds relationships 
oftentimes with other actors.
    I think this is also is part of the reason they have a 
slightly different approach to Iran, which is probably a little 
more accommodationist, although I think that it also has a lot 
to do with sharing the gas field, as Jonathan said. So I think 
this is--it is, partially, it is about increasing their 
influence, but it is also about increasing their influence and 
being independent of Saudi Arabia within the context of the 
GCC.
    Mr. Mast. Okay. So you have each mentioned what you thought 
to the end was, and we are talking about terrorism, support of 
terror. We are talking about a very kinetic action. We are not 
talking about something cyber. We are not talking about 
something economic. We are talking about a very kinetic action.
    So, in that, being that Qatar has been purchasing foreign 
military or our military equipment to the tune of $10 billion 
in 2014, $17 billion in 2015, what is the jump that you make 
connecting the dots to that end? Do you make a jump there? Do 
you fear moving from the tactic of terror to a conventional 
tactic? Is that the assessment that you make?
    Mr. Levitt. No. They are still a small country. They don't 
want to get into a fight with anybody. I think, in their mind 
also, this is not a kinetic. They are just supporting groups, 
and they make a distinction in their own mind this kind of 
cognitive dissonance between other things they might be doing. 
They are supporting the political office of Hamas in their 
mind. They are supporting Islamists who are effective in 
fighting Assad and nothing else in their mind. It is not quite 
so simple, but that is what I--I don't think this is at all a 
threat of regular military-military conflict.
    Mr. Schanzer. I would just add, when you look at Qatar--and 
we have been having this conversation for the last, you know, 
hour-plus--I think it is important to note that Qatar is a 
country of roughly 300,000 people. It is tiny. It has more 
foreign workers in the country than actual nationals. They are 
incredibly vulnerable. They are not picking a fight directly 
with anyone, and this is why they have chosen that soft power 
approach. They bring the conflict away from them. They cause 
problems for other people that only they can solve. This is the 
Qatari way.
    Mr. Mast. My time has expired.
    Ms. Ros-Lehtinen [presiding]. Thank you so much, Mr. Mast.
    And God has granted me another opportunity to make good on 
the pronunciation of Mr. Suozzi's name, so I am pleased to 
yield time to Mr. Suozzi of New York.
    Mr. Suozzi. Thank you, Madam Chairwoman.
    I am going to pick up on something you just said about 
300,000 people that live in Qatar. And I am going to change my 
line of questioning based on that. There are 1.5 billion 
Muslims in the world, and the challenge that we face in today's 
world is--you know, most Muslims don't participate in this 
awful, horrific activity of terrorism and trying to promote 
terrorism and extremism and violence, and the challenge is, you 
know, who is winning in this battle to try and promote 
extremism and violence? And, you know, there are 750,000 
Muslims that live in Indonesia, Pakistan, India, and 
Bangladesh. The other 750--what did I say 750 million, did I 
say that? Another 750 million who live outside of those 
countries.
    So the question is: Things are dynamic. Congresswoman 
Gabbard was talking about, you know, Saudi Arabia's activities 
over decades and promoting Wahhabism and building madrassas and 
promoting extremism all over the world, but things are dynamic 
and things are changing. And some people are moving closer to 
our way of thinking, not to promote violence and extremism, and 
some people are moving further away and continuing to promote 
violence and extremism. So where would you place Qatar on where 
they are right now?
    Mr. Schanzer. It is a great question, and I would say they 
have got one foot in one camp and one foot in the other. And 
this is really what is maddening about Qatar. All right. So, on 
the one hand, they are hosting our forward air base, and they 
are a vital partner on the war on terrorism, and they are 
investing through their sovereign wealth. They are investing 
here in the U.S. and across the West. They are investing in 
legitimate investments, and they have provided a crucial 
service in terms of providing hard capital, especially when 
things got rough about a decade ago; they were there, and they 
were helping.
    The problem is, is that they have used that as leverage. 
So, when we come to them and we talk to them about their 
support for the various groups that we have mentioned, the 
jihadists in Syria, the jihadists in Libya, the Taliban and 
Hamas, and we go and we talk to them about this, they just 
don't listen.
    Mr. Suozzi. So, if the people from Qatar wanted to clearly 
demonstrate to us that they are moving away from promoting any 
kind of extremism and they are moving closer to our way of 
thinking, the West way of thinking, what would be the two or 
three things that they would have to do to demonstrate that in 
a clear way?
    Mr. Schanzer. We should be providing Qatar with a list of 
people that they should expel. It should include people who are 
part of the Taliban, part of Hamas, part of these various 
Syrian jihadi groups.
    Let me put it this way: I have heard from diplomats in Doha 
that the Qataris can't do that because it would really upset 
the Qatari population, that it would really be very unpopular. 
We are talking about 300,000 people who live in an absolute 
monarchy. If the emir wants them gone, they will be gone. It is 
that simple. And we can ask.
    Mr. Suozzi. Okay. I only have 1 minute and 55 seconds left, 
so Dr. Levitt?
    Mr. Levitt. We are not talking about 300,000 people when we 
are talking about the problems in Qatar. We are talking about a 
much, much, much smaller number. In fact, when it comes to the 
al-Qaeda financiers, we are talking about probably two to three 
dozen people max that we are truly concerned about. And we are 
talking about a small number of people in government who need 
to act.
    So this is actually--one of the reasons it is so 
frustrating is it is so doable. This is an absolute monarchy. 
They have a respectable security service. They have no 
tolerance for this type of activity targeting them within the 
kingdom, but so long as activity that is happening within the 
kingdom is targeting others, they are okay if it gives them 
some type of leverage. We need to make clear that there is more 
leverage to be had in having a wholesome relationship with us, 
with the Europeans, with the West, and that there are 
consequences in terms of that relationship if they don't. This 
is fixable.
    Mr. Goldenberg. If I can just add one point, Congressman. I 
think this crisis actually gives us an opportunity to build 
some leverage and go to all of these countries, to go to the 
Qataris and say: Okay, here is our list. You really want our 
support in this crisis? Like we need to see your action on 
this.
    And also to go against the Saudis and the Emirates and--it 
is the exact same thing.
    Mr. Suozzi. I agree with that.
    Mr. Goldenberg. And so I think there is this real 
opportunity now, you know, as sort of the silver lining of this 
crisis of having our partners all at each other's throats 
instead of focusing on what we would want to see them focus on 
because I would rather see them more focused on Iran--I would 
rather see them focused on the counterISIS fight, not in 
spending their time in Washington trying to get all of us, you 
know, on their side--but hereis an opportunity. Let's turn it 
on them and say: Let's see all of you live up, here is the 
standard we want to go by, and we want all the countries of the 
Gulf to go by this standard, and here is what we expect from 
you.
    Ms. Ros-Lehtinen. Yes, please, go right ahead.
    Mr. Levitt. I realize we are over, but along these lines, 
there is a mechanism to do that. At the Riyadh summit, we 
created something called the Terror Finance Tracking Center. 
There is no meat on those bones yet. No one knows, including 
the Secretary of the Treasury who just testified about it, no 
one really knows what that is going to be yet, but it is a 
potential structure. We could put some meat on those bones. 
That is a GCC-wide effort, and we should be acting and 
demanding participation from all the GCC countries because 
these are problems that are happening within all of them, even 
if Qatar and Kuwait are the biggest problems right now.
    Mr. Suozzi. So thank you, Madam Chair. You know, there is a 
real battle in the world going on between stability and 
instability, and it is not necessarily ideology. It is 
criminals that are participating in murder and extortion and 
kidnapping and drug dealing and trying to promote extremism 
ideology. And it is not a group; it is individuals, as you are 
pointing out, that we need to target.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    And now we turn to Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    Just for the record briefly, Mr. Schanzer, last time you 
were in the administration?
    Mr. Schanzer. Ten years ago.
    Mr. Issa. Ten years ago, Bush, right?
    So, Levitt, last time?
    Mr. Levitt. Bush.
    Mr. Issa. Mr. Goldenberg, State Department, when?
    Mr. Goldenberg. 2014.
    Mr. Issa. Okay. So very recently, all facts considered. So 
all of you have been in a position that this committee 
oversees. We actually don't oversee Qatar. We don't oversee 
Kuwait. We oversee the places you were.
    So I am going tell you a story. It is a Bush era story. 
Sixteen years ago there was a hearing in this room, and we were 
evaluating the incredibly unreasonable activities of 
Kazakhstan, because they had the audacity to want to sell their 
MiG-21s to a hostile nation. The other side of the story was 
they had come to the State Department, they had come to our 
Government in the Bush administration, and they said: Look, we 
are a poor country. We are trying to become a rich country. We 
have got oil. We want to turn--we want to turn these weapons 
into plowshares. We want to actually sell them off. We are not 
replacing them. We simply want to raise some cash. And they 
said: Who can we sell them to?
    Mr. Goldenberg, oddly enough, State said: We can't give you 
a list.
    Clearly Lockheed wasn't interested in buying them unless 
they were trade-ins and neither was Boeing or others.
    So my question to you is--each of you--because I have been 
through these hearings on country after country, and we are 
going to see whether it is the Palestinian Authority and 
including Hamas, whether it is Kuwait, Qatar, Saudi Arabia, we 
are going to keep having these hearings, and we are always 
going to find one thing. Money is leaking to bad people from 
within these countries, either by individuals or, in fact, 
there may be a nexus to the government in some way.
    What I want to know is, what are each of you prepared to do 
and should this administration do under our auspices--and I 
think, Mr. Schanzer, you alluded to this--to make a list of who 
you can give to, to make list of who you want out, to make 
list--in other words, how do we get the administration to set 
solid, predictable standards, so we know it is not a mixed 
message, please?
    Mr. Schanzer. Thank you, Congressman. What I would say is, 
A, I think we can provide lists and say these people shouldn't 
be here or they should be in jail and that you need to take 
action. And I think that is a very, you know, straightforward 
approach. There are other things that I mentioned.
    Mr. Issa. And I will commit that if you provide that list I 
will forward, and I hope my chairperson will actually do it on 
my behalf, but I will commit to forward it to the 
administration asking them, have they and will they make that 
request?
    Mr. Schanzer. We will take you up on that.
    What I would also add, though, is there are other ways of 
putting pressure on countries like Qatar that don't involve the 
individuals themselves but that make it more painful. So I 
mentioned the STORM Act, which was introduced in the Senate.
    Mr. Issa. Right.
    Mr. Schanzer. And is yet to be introduced in the House, but 
this would potentially label Qatar and/or any other country a 
jurisdiction of terrorism finance concern, which would then 
have a chilling effect on those who would be interested in 
doing commerce.
    Mr. Issa. But my question was more narrow. It is, how do we 
get, like those lists, specifics to the administration? One of 
the challenges we have: We pass these various acts, and then 
there gets to be all kind of debate about it. But what I think 
I have heard throughout the day, both here and when I was in 
the back, is that there are specific asks that we should be 
asking countries to do, including in this case Qatar.
    Now there are things that they can't undo. The emir 
visiting Hamas and giving money for a hospital, we can't unring 
any of that. We can only feel that it was not helpful, to say 
the least.
    So one of my questions to each of you with the limited time 
is, can you briefly tell us additional acts, and can you agree 
to give us lists of things that you believe we should work with 
the administration to get done? My hope is that it will not be 
pass a law that ties this and future administration's hands, 
but, rather, things you know should be done that we need to ask 
them, why aren't they doing it?
    Mr. Levitt. So to be perfectly blunt, sir----
    Mr. Issa. I love blunt.
    Mr. Levitt. I know you do. They know, because we have told 
them. I am happy--I will speak for all three of us. We are 
happy to provide you information. We have a Treasury attache in 
Doha. He works real hard all the time. This new MOU is going to 
send a Department of Justice OPDAT official, a prosecutor, to 
help them with the prosecutions. There is no question about the 
names, not only because we have designated many, because we 
have this very open conversation with them many times. In one 
of my recent conversations with the senior Qatari official, the 
official said to me: Look, Matt, you are former FBI. We need 
the FBI to tell us.
    I said: No, sir. You have a really good security service. I 
know because I have worked with you in the past. I know that 
our people are working with you on a regular basis. You know 
that I know that you know exactly who we are talking about.
    And, therefore, it is frustrating, as I mentioned earlier, 
when a senior Qatari official says just yesterday: All of the 
terror financier subjects in our country have been subject to 
prosecution.
    That is not true, nor is prosecution the only tool in the 
tool chest.
    So I would argue that the problem here is not the lists. 
The problem here is that they refuse to do it, and we haven't 
had any type of consequence for that because we need them for 
other things. We want them for other things, but we have to be 
able to balance that.
    Mr. Issa. Well, that is why I believe our list forwarded 
will have more of a, why not?
    And I want you to answer, but my question was broader. It 
wasn't just Qatar. It is very clear that we have similar 
requests from other allies or semi-allies throughout the Gulf, 
yes.
    Mr. Goldenberg. Thank you, Congressman. Just one quick 
point. I know we are over time, but I think one thing the 
committee could do is, for example, ask for a report on what it 
would mean to actually diversify away from the Qatari air base, 
not because I necessarily recommend doing that. I actually 
think it would end up being very expensive and difficult, and 
if we can, we should could keep that base. It is a valuable 
asset. But I also don't think it is a point of leverage to the 
point that we just mindlessly say, ``Well, we are just going to 
keep doing this because we are doing it right now,'' and it 
keeps a gun to our head. And I think, unless you sort of push 
the Pentagon or the State Department to at least start 
creatively thinking about alternatives, the answer you will 
always get from any administration is, ``We have zero leverage 
here, we need this space,'' which is isn't actually the case. 
So that would be another area which would also I think send an 
interesting----
    Mr. Issa. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa.
    And now we turn to Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman.
    Thank you to our witnesses for your testimony.
    Dr. Levitt, I just want to just start with you. You served 
as Deputy Assistant Secretary of the Treasury and so you 
understand the critical role that our agencies play in 
advancing and implementing U.S. foreign policy, and as I am 
hearing your testimony, it just reminds me how disturbing it is 
and how much more complicated it is that this administration 
has not only called for a 30-percent cut in funding to the 
State Department but has left really important positions vacant 
and without nominees. At a moment that we are trying to manage 
this crisis and this very serious conflict in the Middle East, 
we are still waiting on nominees for the Assistant Secretary 
for Near Eastern Affairs and USAID Assistant Administrator for 
the Middle East, and at a time when terror groups continue to 
talk about efforts to pursue weapons of mass destruction, it is 
really baffling to me that we would leave vacant the position 
of Under Secretary for Arms Control and International Security. 
I take it you all are equally mystified by that?
    Mr. Levitt. It would be much better if we had these 
positions filled.
    Mr. Cicilline. Great. Thank you.
    I want to first talk about Turkey. One of the demands on 
Qatar has been to close the Turkish military base located in 
Qatar, and Turkey has responded, of course, by bolstering its 
military presence as a strong show of support. And my question 
really is, is this a real demand? What is the purpose of it? 
And what would be the implications if this base closed?
    Mr. Schanzer. I will let Ilan speak in a sec, but what I 
would just say is you have to understand: We talk about the 
politics of this region, and overall, these countries are upset 
with Qatar for its financing of Muslim Brotherhood groups 
across the Arab world. And they see it as a challenge to their 
view of the region, in which they would like to maintain 
something of the status quo. The Turks have been strategic 
partners with the Qataris. There is no question about it. And 
so they see this as doubling down on that sort of Muslim 
Brotherhood Axis, if you will, and so they see it as a threat. 
I don't think they want to open up another front on this. I 
think they are focusing on Qatar for a reason, but when you 
speak to representatives of these countries, they will tell you 
that they see the Turks as perhaps second in line in terms of a 
challenge to the regional order that they seek.
    Mr. Cicilline. And is your assessment that this has pushed 
Qatar closer to Turkey, this blockade?
    Mr. Schanzer. Oh, they didn't need to be any closer. They 
were already strategic partners, but now I think--I mean, as I 
see it right now, Qatar has very few friends, so they have 
reached out to the Turks, and they have drawn closer to the 
Turks. And alarmingly, they also appear to have drawn closer to 
the Iranians, which is one of the things that Qatar's 
adversaries were warning about in the first place.
    Mr. Goldenberg. Congressman, if I can add one point on 
Turkey, there was this initial list of 13 demands by the 
countries that implemented the blockade. That list has since 
been narrowed down to six and was last week in a statement that 
they put out, and the Turkish base is no longer on that list of 
demands. And so I think that the Turkey issue is an issue for 
them precisely for the reasons that Jonathan talked about, but 
it is, I think, a lesser priority for them than some of the 
issues on counterterror financing, their concerns about whether 
Qatar's meddling in their own internal affairs, which they 
consistently talk about Al Jazeera, things like that I think 
really what they care alot more about than the Turkey issue.
    And on Iran, I would only add I think it is true that, 
yeah, Qatar has a more accommodationist approach than some of 
the other Gulf states, but I think there is a real mix across 
the Gulf on Iran that is important to recognize. The GCC--if 
anything, we have learned from this crisis, the GCC is not 
homogeneous. The Saudis take the hardest line on Iran. Even 
within the UAE, Abu Dhabi takes a hard line; Dubai much less so 
in terms of trade. So, you know, I do think there is this 
diversity of views. Oman obviously played a very different role 
on Iran, more as a mediator, particularly during the nuclear 
talks.
    Mr. Cicilline. I would like to follow up on Iran. The 
Qataris have obviously been trying to counter Iran's 
strategically while at the same time trying to kind of continue 
to maintain a dialogue with their Iranian counterparts. What do 
you think is the rationale for that decision and the kind of 
long-term implications?
    Mr. Goldenberg. So I think they are a country of 300,000 
people, as we have talked about, and all of their wealth--the 
majority of their wealth comes from this huge gas field that 
they share with the Iranians. You know, they own half of it; 
the Iranians have the other half. So this is a reality of 
geopolitics that they are living with, and you are never going 
to get them to, I think, pull away completely.
    At the same time, at least my engagement with Qatari 
Government officials, you don't hear a lot of love for the 
Iranians necessarily. You do hear some angst, but they are not 
going to take a hard-line approach like the Saudis. I just 
don't think they can afford to, given like the position that 
they are in.
    Mr. Schanzer. I would agree with that. I think a lot of 
this is driven by the Qatari need for survival. But I have 
heard from some of our friends in the region in recent months a 
concern that the Muslim Brotherhood and Iran are not exactly at 
odds with one another. I think we have this sort of 
preconceived notion that, because the Muslim Brotherhood is a 
Sunni organization, a Sunni network, it is fundamentally at 
odds with Iran. That has not been the case historically. 
Looking just at Hamas, for example, you have this confluence of 
both Qatari support and Iranian support there, so there may be 
more than meets the eye, and this is, I think, something that 
is worthy of perhaps additional research.
    Mr. Cicilline. Thank you so much.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, and I appreciated 
your insights that you have provided us today. I have got a 
long history in dealing with Qatar and with those other 
countries. I have been here 30 years now, and I worked with the 
White House before I got here.
    And what I--I can't help but lament that things seem to be 
going in the opposite direction than what we had as a positive 
potential 20 and 30 years ago. It really did look like Qatar 
and some other countries in that region were going to go in a 
more positive direction, and now what we see is basically they 
are--schizophrenia on their part trying to play both sides 
against all sides, or these people think that they can just 
juggle. They think they are the world's greatest jugglers in 
that they can handle both groups of enemies and friends.
    So let me ask this: When you talk to the people from Qatar, 
and I have, and they will tell you every time that they--and, 
again, one other--there was one question earlier on this--that 
they were asked to bring in the Taliban, that they were asked 
to bring in al-Qaeda and Hezbollah and these various groups, by 
the United States Government. Did--even during the last 
administration, did we indeed ask them to bring in the Taliban 
and have a greater opportunity for the Taliban to use their 
area there in Qatar as a base of dealing with the world?
    Mr. Goldenberg. So I didn't work--I was in the last 
administration, but I did not work on issues having to do with 
the Taliban.
    Mr. Rohrabacher. Can anyone answer that question? They are 
telling us we asked them to do it. Did we ask them to do it?
    Mr. Goldenberg. But I do think--I can answer, from my 
understanding, which is I do think we asked them to do it, but 
I do think it also goes back to this point that part of the 
reason we asked them to do it is because the Taliban were 
already operating there in some form or capacity already.
    Mr. Rohrabacher. So there is some verification that perhaps 
the United States Government did ask them to get involved with 
some of these what we consider to be terrorist elements. We 
know that the deal for the Taliban Five leaders, terrorist 
leaders, were traded for one traitor to our Government, and 
which I thought was the worst raw deal that we could have ever 
possibly have gotten, that was something our administration 
did, and it would happen via Qatar.
    Now, let me just ask this, and I am going to be very 
pointed here, and, look, the Clinton Foundation has received 
millions of dollars of contributions, we know, from Russian 
oligarchs. Is there any--how much has the Clinton Foundation 
received from Qatar? Do we know of any--or maybe Qatar has not 
given any money to the foundation. Is that right?
    Mr. Levitt. None of us have those figures, but I just want 
to correct one thing. There is some debate as to what the 
United States might have asked Qatar to do or not regarding the 
Taliban, and I think it is now clear. They asked Qatar to allow 
this office to be open since the Taliban was already there, but 
this was not Hamas. You had mentioned Hamas. This was not 
Hezbollah. This was not al-Qaeda.
    Mr. Rohrabacher. I am sorry. I have 1 minute left, and let 
me just note, Madam Chairman----
    Ms. Ros-Lehtinen. You have more time. Don't worry about it.
    Mr. Rohrabacher. Okay. Well, I think it would be fitting, 
Madam Chairman, that we make a request to find out if Qatar has 
been the source of major donations to the Clinton Foundation, 
and if, indeed, our Government, during the time when Hillary 
Clinton was our Secretary of State, did indeed ask Qatar to 
permit some of these what we consider terrorist organizations 
into their country. This needs to be looked at very closely 
because we know that the Clinton Foundation was certainly in 
Russia receiving tens of millions of dollars from Russian 
oligarchs.
    Let's just note that whether it is al-Qaeda or the Muslim 
Brotherhood, the jihadists and Hezbollah, Qatar has to make its 
choice. And by the way, just one point that was made here 
earlier: I do not consider the rebuilding of Gaza to be a 
positive act. If, indeed, the Palestinians are shooting rockets 
into Israel and Israel retaliates, for Qatar just to step 
forward and to rebuild everything that has been destroyed by 
Israeli retaliation, what we are really doing is encouraging 
the people in Gaza to permit the shooting of rockets from their 
territory into Israel.
    No, the fact is that, if, indeed, Israel is retaliating 
against an attack, we should not be cleaning up the mess. Those 
people who actually permitted the attacks in the first place 
should be paying a price for it. Because we don't want attacks. 
We want there to be peace. This is the two-state solution was 
supposed to come out of this, and instead, the Palestinians 
ever since then have just been shooting rockets and creating 
terrorist attacks against Israel. Now let's discourage that by 
not rebuilding their buildings if they have been destroyed as a 
retaliation against this type of terrorist attack on Israel.
    Let me just say again, and I agree with this, that this has 
not been a hearing about all the rest of these states. Frankly, 
I don't find Qatar any worse than our Saudi friends, and there 
is, again, schizophrenia going on there. But we look at the 
Muslim Brotherhood and the impact that it is having throughout 
that region, and we realize that, both in Qatar and in Saudi 
Arabia, they embrace the Muslim Brotherhood philosophy, which 
has served as basically the intellectual foundation for these 
terrorists, wherever they are, whatever you want to call them, 
al-Qaeda or Hezbollah or jihadists or Taliban or whatever we 
want to call them, ISIL. We need to make sure--it is a time of 
choosing right now that the juggling has got to stop, and I 
would hope that the royal family in Qatar and the people of 
Qatar decide to be our friends because they have that choice, 
but if they continue down this path, they will be deciding not 
to be our friends and decide instead with the Muslim 
Brotherhood and the terrorists. So I hope that this hearing 
today sends that message.
    Ms. Ros-Lehtinen. Thank you.
    Thank you, Mr. Rohrabacher.
    And Mr. Schneider is recognized for the same amount of 
time.
    Mr. Schneider. Thank you, Madam Chairwoman. I will 
apologize in advance, I have a concurrent markup in judiciary. 
If I jump up and leave, it is because I have to go vote. Please 
don't take it personally. But thank you for your time here for 
sharing your perspectives, but also for the work you do on this 
and other important issues.
    There is so much here and so much to understand. I think my 
colleagues have touched on some of the intuitive and 
counterintuitive aspects of our relationship with Qatar and the 
difficulties in fully defining the parameters. I will ask a 
leading question. Would it be better for us and the region if 
Hamas, the Taliban, al-Qaeda weren't raising finances in Doha?
    Mr. Levitt. Yes, it would be better.
    Mr. Schneider. Dr. Schanzer?
    Mr. Schanzer. Yes, it would, and it would also be better if 
they didn't have a presence there that was legitimized.
    Mr. Schneider. Mr. Goldenberg?
    Mr. Goldenberg. Yes.
    Mr. Schneider. And the reason I ask the question is you can 
make lemonade out of lemons. You can find, in a difficult or a 
bad situation, something to pull out of it, but I think what I 
am hearing is a broad consensus that we are looking to the 
Qataris to end the financing of terror in their country and to 
be a full partner in fighting terrorism in the region. Is that 
a fair summary?
    Mr. Levitt. It is, but I think it is just as important to 
that we finish off today by noting that we need the other GCC 
countries, this kind of coalition of four in particular to be 
flexible and allow Qatar some face-saving ways to do this. And 
so far, they seem to be pretty kind of hardline that nothing is 
good enough. And so we absolutely must demand that Qatar make 
real substantive and verifiable change, but in order for that 
to happen, we are going to have to have, you know, honest 
conversations with our other allies in the region and kind of 
insist that they be flexible enough to find a way that Doha can 
do this, and that is going to have to involve some face-saving 
gestures, and that is okay so long as the changes are 
substantive and verifiable.
    Mr. Schneider. Thank you.
    And that is where I was trying to get to. So I appreciate 
that sentiment because it is a matter of we have a base in 
Qatar. It is an important base to the work we are trying to do 
in the region. The work we are doing is longitudinal. It is not 
going to be solved overnight, and we need to have a long-term 
strategy.
    Mr. Goldenberg, you referenced and others did, as well, the 
issue that we have options to look at other places besides 
Qatar to place our assets, and to the whole panel, as you look 
at the region, what would be the benefits to us to having a 
more diverse platform, diversified platform, than just the base 
in Qatar?
    Mr. Goldenberg. I think there is definitely, Congressman, a 
benefit--there is always a benefit to having more diverse 
options. We have other options in the region. We have options 
in Central Asia. We have a base in the UAE. We have a base in 
Bahrain. So the more options you have, the less leverage any 
one of these actors has over us. At the same time, I think we 
would have to do a real evaluation because if we lost the base 
in Qatar, I mean, they even invested $1 billion in that base 
during the nineties. That is a ton of money. They do have 
technology there and sort of runways and space and things we 
don't necessarily have elsewhere.
    And so I think it would be--and on top of that, if you end 
up in a situation where we lose access to the base, then you 
also start running into questions of not being able to conduct 
as many operations in Iraq, in Syria, and Afghanistan and 
elsewhere and also a problem where we could bring in a carrier 
or something like that to offset some of those problems, but 
then you lose the ability to do things in the Asia Pacific or 
in Europe. So it is a very complicated question, but it is 
worth--it is certainly worth exploring, instead of making it 
just a sacred cow, because whenever you make something a sacred 
cow and it becomes invaluable to you, then you have a lot less 
leverage over everything else.
    One other point, if I can just add on to what Matt was 
saying, which I think is just important to also weigh, I really 
do think we need to focus on getting all of our friends in the 
region to deescalate this crisis, because you just go back and 
look at it: You know, the President went in May, and the whole 
conference in Riyadh was about ISIS, Islamic extremism, and 
Iran. And what have we been doing for 2 months now with these 
guys? What is Secretary Tillerson doing when he goes out for a 
week to the GCC? What are we talking about here today? We are 
talking about the fight they are having amongst each other.
    You know, if they are spending 90 percent of their time, 
which I have had diplomats telling me, ``I am spending 90 
percent of my time on this issue,'' you know, they are not 
spending time thinking about all of the other things we want 
them to think about and what we want to think about. So I think 
that is a really important piece of trying to deescalate this 
and trying to find a solution, even as we push them on the 
terrorism.
    Mr. Schneider. Thank you. I think that is an important 
point.
    My last line is, as we are doing that, as we are balancing 
all these different issues, consistency of message on our part, 
transparency on the part of the Qataris, what is the impact of 
the divergent message or inconsistent messages coming out of 
the administration having on our ability to move forward in 
this region?
    Dr. Schanzer.
    Mr. Schanzer. I think it is clear that we have a couple of 
different messages that are coming out. We are hearing, on the 
one hand, that this crisis is not an urgent issue for the 
administration and, at the same time, that it is something that 
we do want to have handled.
    I think perhaps some of the actors in the region believe 
they have a free hand to act when they hear parts of the 
administration speak and then perhaps feel more constrained. I 
think consistency is going to be important here. I personally 
believe that we should be sending a message to the Qataris that 
we demand change. And that ought to be the first thing that we 
say and then to follow up with that by saying: And as we demand 
this change of you, the other four actors involved in this 
crisis can stand down while we take over.
    And that I think would be the way to get this to a soft 
landing and perhaps would be one of the face-saving sort of 
mechanisms that Matt discussed here today. But I would like to 
see more American leadership on this, if possible.
    Mr. Schneider. To use your analogy, though, as well, the 
Ferrari and the other car is also speeding. Is it fair to say 
that we need to have expectations of all of our allies in the 
region that they are addressing the terror issue?
    Mr. Schanzer. 100 percent.
    Mr. Schneider. Okay. Dr. Levitt, to you.
    Mr. Levitt. I just say, in my conversations with officials 
of the past few weeks, it is very clear that the conflicting 
messages coming out of the administration are affecting them. I 
have spoken to people on both sides of this intra GCC conflict, 
and each clearly feel that they can listen to the part that is 
saying what they want to hear. I have also been in Europe 
recently and in conversations with counterterrorism officials 
there, they have been asking me--and I am no longer a 
government official--what does Washington really think? And so 
our allies are confused as to what our position is.
    I think there are other ways that we can do face-saving 
gestures. I think Jonathan is absolutely right. If we play more 
of a role, there is more likelihood that things will move 
forward. We just agreed on a memorandum of understanding with 
Qatar. Again, there is not a lot of meat on the bones of that. 
That is fine. Let this be a mechanism to which we say, through 
guarantees to us--and let's bring others in, the EU others--
Qatar is going to make the following changes. Qatar has to be 
willing to agree to make those changes and to do it in 
verifiable ways, and then we can go to the Emiratis and the 
Saudis in particular and say: Hey, this is how it is going to 
be done, and this is what the verification is going to look 
like.
    But the Qataris have to be willing to make those changes 
and to do it in such a way that will be verifiable.
    Mr. Schneider. Great. I see that I am out of time. I 
appreciate the extended time. I do agree we do have to be clear 
in our expectations, clear in our strategy in working with all 
our allies in the region.
    Thank you very much. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider. Mr. DeSantis of 
Florida.
    Mr. DeSantis. I thank the chairman.
    Dr. Schanzer, how would you describe Qatar's relationship 
with Iran?
    Mr. Schanzer. Uneasy. Although also a bit more ambiguous 
than perhaps what has been previously described. Uneasy in the 
sense that they are a small country, they are a weak country, 
and they are looking across the Persian Gulf at a powerful 
country that is on the precipice of a nuclear weapon, and they 
need to figure out a way to get along with this neighbor, 
especially one where they share this natural gas field.
    So that I think explains in general the dynamic, but we 
have been hearing that there could be more cooperation than was 
previously seen. I mean, this is essentially what the Gulf 
quartet has been alleging against Qatar, that it has been 
working with the Iranians or perhaps with its proxies. I have 
heard allegations, not just of Hamas, where we know there has 
been sort of, you know, a cooperation on all fronts, but also 
potentially Hezbollah, potentially the Houthis in Yemen. We 
have heard these things. There is not a lot of evidence yet to 
prove these things, but it is certainly something worth 
watching.
    Mr. DeSantis. There are also reports I think that Qatari 
money has ended up in Iraq with some of the Iranian-backed 
militia groups there?
    Mr. Schanzer. Correct.
    Mr. DeSantis. What about the Muslim Brotherhood and the 
relationship that Qatar has with the Brotherhood? I read your 
testimony, and you had wrote about some of the people that they 
were--Qatar was really supportive of the Morsi government in 
Egypt after Mubarak was pushed out, but then when General el-
Sisi took over, that Qatar was kind of a haven for some of 
these people, and I have heard reports that some of these 
really radical clerics like Sheikh Qaradawi, who is one of the 
biggest Muslim Brotherhood clerics, is in Qatar. So is that 
true, a lot of those folks who were involved with the 
Brotherhood government now have refuge in Qatar?
    Mr. Schanzer. A hundred percent, and in the previous Gulf 
crisis, there was one 3 years ago, one of the demands of Qatar 
was that they exile some of these Muslim Brotherhood figures, 
that they expel them from the country. But when you look at 
what the Qataris invested in Egypt during that 1 year plus of 
Morsi rule, it was reportedly $18 billion. It was a real 
significant investment. You look their support for various 
actors in Syria; they were definitely throwing their weight 
behind the Brotherhood there. In the early years of the 
uprising, the Ennahda Party in Tunisia. Qataris are big 
supporters there. The Muslim Brotherhood in Libya. It is I 
think at this point undeniable that the Qataris are the number 
one supporter financially and politically of the Muslim 
Brotherhood in the Muslim world. I think Turkey is probably 
number two, not as much financially but more politically, 
although perhaps a bit of both. But this is really the 
cornerstone of the debate as I see it between Qatar and its 
neighbors, that the neighbors are furious because they do not 
want to see the Muslim Brotherhood come to power, and they 
believe that the Qataris have continued to finance and support 
the Brotherhood in many theaters.
    Mr. DeSantis. So what is their reason for doing that? I 
mean, there it is a very wealthy country, the--I mean, just the 
royal family, huge wealth. Is it just idealogically that is 
what they want to do because it seems like it has caused them a 
lot of problems in the region.
    Mr. Schanzer. I agree it has caused them problems, and I 
would say that, at this point, when you look at what has 
happened throughout this crisis, it looks like a gamble that 
has not paid off, and I think many of the other gambles 
throughout the Arab Spring, it looks like a lot of money has 
effectively gone to waste, but they see this as their leverage, 
a counterleverage to their Gulf neighbors with whom they have a 
pretty significant rivalry, and it is their way of I think 
punching above their weight, as Matt had mentioned, and so they 
continue to pursue this.
    I think there is certainly an ideological approach here, 
though, as well.
    Mr. DeSantis. I am sorry. I actually have run out of time, 
but do you guys have any insights into the Brotherhood 
relationship, or did he cover everything?
    Mr. Goldenberg. I mean, I think, as Jonathan described, 
there is this relationship. It is a long historical 
relationship. I think--you know, I am more skeptical about how 
much of it is ideological and how much of it is more just 
geopolitical playing, you know, the Qatari overall third way. 
You know, if it was really deeply ideological, why would they 
also build a strong relationship with us at the same time? To 
me, it is more of like they don't want to play the same role, 
they don't want to just follow the Saudis, they want to be an 
independent actor in the Gulf. So they are going to just pursue 
an open-door policy that welcomes all kinds of different 
players, some of which we can work with, including ourselves, 
some of which are a huge problem. And so that is the 
motivation. It doesn't necessarily explain the behavior which--
or excuse the behavior, which I think, again, sometimes they 
can be useful to us on some of these things, but a lot of 
times, we need to press them harder to stop.
    Mr. DeSantis. I am out of time, and I will yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis.
    Sheila? And now we are so pleased that two members who are 
not on our subcommittee, but I know that they are very 
interested in this issue, and I am very pleased to yield to 
them, and we will start with Ms. Jackson Lee of Texas.
    Ms. Jackson Lee. Let me thank the chairwoman for her 
leadership and the ranking member for their leadership of this 
committee and the important testimony that has been given by 
the witnesses. I am in the same predicament. Though I have been 
able to listen to the testimony for a while, I am in the markup 
and may be called to a vote as I speak. But I will rush very 
quickly to thank the witnesses.
    But I really want to speak to Mr. Goldenberg, if I might. I 
notice that the title of the hearing is ``Assessing the U.S.-
Qatar Relationship,'' which I think is extremely important. So, 
if you might bear with me, I am going to ask questions more or 
less in a lawyerly factor.
    Would you indicate or confirm that--and I am just going to 
go back as far as the Clinton administration, the Bush 
administration and Obama--in those administrations, would you 
venture to say that Qatar engaged positively with the United 
States in Bill Clinton? I am just going to get you, yes or no.
    Mr. Goldenberg. Yes.
    Ms. Jackson Lee. Mr. George W. Bush?
    Mr. Goldenberg. Yes.
    Ms. Jackson Lee. And President Obama?
    Mr. Goldenberg. Yes.
    Ms. Jackson Lee. So, if you just wanted a blanket 
assessment, that was a positive relationship between the United 
States and Qatar on some of the issues they were discussing?
    Mr. Goldenberg. I would say yes. I would say that they 
are--you know, look I think, Congresswoman, I think that we 
have a good relationship with them on a number of issues, the 
most important I think being the air base, but beyond that, you 
know, when we ask them to do things, they often do them.
    Ms. Jackson Lee. And let me--forgive me, I am called to a 
vote. During the Bush administration, do you have a 
recollection or by news or your research that then Secretary of 
State asked them to engage with Hamas?
    Mr. Goldenberg. I don't know, but one of my colleagues 
might know better than me.
    Ms. Jackson Lee. Okay. So you mentioned or in the 
discussion, we have mentioned that the region is an important 
region. I, from the lawyer's perspective, say that none of them 
in the court of equity are there with totally clean hands, and 
I would offer to say that stability is important. Security is 
important. And in your testimony, I would like you to repeat 
what you said about engaging so that we can encourage the 
stability--I understand the list has now been in essence pared 
down to about six of the demands, but how would it be best for 
us to effectuate that engagement where all of the parties 
recognize that there are elements of their policy dealing with 
terrorists that should be eliminated?
    Mr. Goldenberg. Sure. I mean, I think that the most 
important thing--and Matt's brought this up a couple times 
during the hearing, this question of the MOU being a good 
starting point. Setting one bar for everyone to meet on the 
question of terror financing would be, I think, very valuable 
because there is--the Kuwaitis are a problem. The Qataris are a 
problem. Maybe the Saudis are getting better, but there is a 
long history there and a long way to go. The UAE has also had 
its issues. And so holding them all and saying the United 
States will hold them all to one standard and applying that 
standard across all of them I think becomes beneficiary to us 
in terms of dealing with the overall challenge and also helps 
to alleviate this crisis amongst them. And then I think also 
just in terms of dealing with stability and dealing with the 
region, it is really hammering home the point that we are not 
going to want to like want to spend all of our time dealing 
with this internecine conflict that they have amongst 
themselves. It is time to get back to the bigger issues that 
threaten their stability and threaten our stability, you know, 
the things that really draw us into the region, and whether 
that is ISIS, you know, extremism, you know, some of the things 
that Iran does in the region that are problematic, but that is 
where I would really like to see the relationship----
    Ms. Jackson Lee. So any interjection by Congress for 
placing punitive measures on one of the other, in this 
instance, maybe Qatar, would you view that as a positive act?
    Mr. Goldenberg. I wouldn't recommend doing that. I would 
recommend having a standard that Congress applies to everyone 
across the board. And Qatar might--you know, as Jonathan said, 
you know, that analogy, Qatar might have the fastest--you know, 
might be the 90 miles per hour Ferrari, and so they are going 
to have longer to go.
    Ms. Jackson Lee. And let me follow-up with, I think, almost 
concluding question. Emboldening one over the other, I happened 
to have been in the region during the visit of the 
administration, and meeting with, at that time, the President 
of Egypt and discussing these issues. I have a very strong 
commitment to the region for its security relationship to 
Israel, which we want to ensure their safety. And would you 
make the argument that, as you just said, focusing our 
attention on the larger picture, and trying to ensure the 
stability of the region by way of setting a certain standard, 
would that be helpful in terms of making sure the region 
remains stable for other big fights, and, also, the security of 
Israel?
    Mr. Goldenberg. Yeah, I think it would, and I think also, 
Congresswoman, you mention the issue of emboldening. I do think 
that--you know, we made a mistake by essentially signaling a 
green light and a blank check to the Saudis with the 
President's visit to the region, and basically led them to 
believe that there was nothing they could do wrong, so they did 
this. Where the stronger message I think would have been, you 
know, we will take a tougher stance on the issues you care 
about, whether it is Iran--or I would not advocate for walking 
away from the nuclear deal. I think we should stick to the 
nuclear deal. But, you know, you want to take a harder stance 
toward Iran's behavior in the region, you want us to do more on 
counterterrorism, we will do that, but we also expect you to 
clean up some of your act. And we have expectations of you. 
This isn't a blank check. This is a quid pro quo or an 
agreement between a relationship between two partners. And so I 
think that was part of the problem out of that trip.
    Ms. Jackson Lee. Let me thank the chairlady----
    Thank you all for your testimony. Forgive me for my focused 
questioning. But let me thank of the chairlady for her 
kindness. And I like the blank-check analysis that we should 
not give, and that we should work together for harmony--I like 
that word as well--in the region. I thank you so very much, and 
I yield back to the gentlelady.
    Ms. Ros-Lehtinen. Thank you. We are thrilled that you were 
able to join us.
    And Mrs. Maloney, if you could hold your fire for a just 
few minutes, because Mr. Connolly, who is on our subcommittee, 
is back with us, so we are going to yield time to him right 
now.
    Mr. Connolly of Virginia.
    Mr. Connolly. I thank the chair.
    Mr.--Dr. Schanzer, when you were--in your opening 
statement, you made some allusion to--a reference to maybe paid 
lobbyists for governments in the region had descended on our 
offices or paid a visit. I am not sure I understood the point 
of that, or what you were getting at, but I wanted to give you 
an opportunity to explain. Because, I mean, there are a lots of 
lobbyists, for lots of countries, including Israel, that 
descend on our offices, and we don't necessarily import to that 
anything negative by way of inference. Were you suggesting----
    Mr. Schanzer. No, Congressman Connolly. There is nothing 
illegal or unseemly about it. I think the point that I am 
trying to make is that there is a lot of it right now.
    Mr. Connolly. That what?
    Mr. Schanzer. There is a lot of it right now. There is a 
lot of noise. We are seeing a lot of different actors.
    Mr. Connolly. I am sorry, because I only have--do you mean 
about Oman--excuse me, Qatar?
    Mr. Schanzer. About this Qatar conflict. But I think in 
general, when we look at the permissive nature of what we have 
allowed to take place across this region, in my view, it has 
been the direct result of yielding to these actors. In other 
words, over time, this has become sort of the boiling frog, 
although I heard the other say that actually is not scientific, 
that frogs actually can be boiled. They won't jump out.
    But regardless, what I would say is that over time, we have 
come to just accept the fact that there are terror financiers 
running around in Qatar, that there are terror financiers 
running around in Kuwait, and we are being asked to look the 
other way. And over time, we have grown used to this because 
they have engaged with us on deals to buy weapons, on 
investments here in the United States, and because they have a 
face here in Washington. And what I would like to do is to try 
to look beyond the messaging and get back to the facts here, 
which is that we have problematic relations.
    Mr. Connolly. Right. But could it not also be because we 
also have bases? Could we have troops stationed there? And we 
have the largest base in the region in Qatar?
    Mr. Schanzer. We do. And the question----
    Mr. Connolly. I mean, maybe we have conflicting interests 
here. I am not testifying to that behavior, but it is not a 
simple matter of paid lobbyists who are influencing us here, 
there is a lot of money flowing around. It is because, 
actually, we are looking at U.S. interest in the region, and we 
see a conflict.
    Mr. Schanzer. But I would actually argue in response to 
that that one of the reasons why we have been able to keep the 
base, or how the Qataris have been able to keep that base, is 
that we continue to hear, Well, gosh, they are doing all these 
wonderful things, and they are helping us out. So, you know, we 
will deal with this terror finance problem quietly over here. 
Let's not deal with it. Now, look 10 years later, and we still 
have this problem. We now have a full-blown crisis.
    My argument is, is that we have not dealt honestly with the 
problem of terrorism finance in Qatar for a long time, and I 
would argue that we probably haven't dealt honestly with the 
terror finance problems of some of those other countries as 
well.
    Mr. Connolly. Yeah, I--I mean, if we are going to go that 
route, I would add to your list. I mean, I would add the 
Saudis, financing Wahhabism and madrassahs all over the world 
that have fomented enormous amounts of terrorism and extremism, 
one can argue.
    Okay.
    Mr. Goldenberg, you talked about the conflicting messages 
from the President and Secretary of State with respect to this 
conflict. And I have to agree with you. I am just wondering, 
adding to that, like, what is the policy? And should we be 
doing it by tweet? Different. But how about the State 
Department, only two of 22 Assistant Secretaries even 
nominated, the Ambassador in Doha resigning and arguing because 
increasingly, it is difficult to wake up overseas and try to 
explain what the hell is going on in Washington, DC, and what 
it means as the Ambassador. And of course, a proposed 32 
percent cut to State and aid, just spitballing here, could that 
have something to do with our inability to effect some kind of 
understanding and agreement and reconciliation among the GCC?
    Mr. Goldenberg. Well, I will say this: Yes, I think it is a 
huge problem that you have all these vacancies. And it is a 
good example of the fact that Secretary Tillerson had to go 
over there on his own for 4 days.
    I am not sure I would have recommended that. I don't think 
this issue necessarily merits that, unless you actually think 
you are going to have some agreement, or unless you are going 
to have some kind of a breakthrough. And it is very obvious to 
those of us watching it, that you weren't going to have an 
agreement.
    So I do think that in a situation like that, who else do 
you send, though? You pretty much have nobody, especially the 
Assistant Secretary. As you know, somebody who worked for the 
State Department for a number of years.
    You know, in every department and in every agency, and I 
have worked in a couple, there is that key level in the middle, 
that the individual who is senior enough to be able to reach up 
to the Secretary of State and, like, get in front of them 
immediately and inform them, and still close enough for the 
worker bees and the people working, and the experts in the 
agency who can reach down and pull in.
    At the State Department, those are the Assistant 
Secretaries. They are the key, in my view, node. And the fact 
that they don't exist means there is no connectivity between 
the entire Department and the expertise and the Secretary.
    So, yes, I think it harms us on this issue, and pretty much 
all issues.
    Mr. Connolly. And, Madam Chairman, Lois Frankel had a 
question. If I could ask it on her behalf and that way----
    Ms. Ros-Lehtinen. Yes, we would be honored to have you ask 
it on her behalf.
    Mr. Connolly [continuing]. We shave 5 minutes, you know?
    Ms. Ros-Lehtinen. Please go ahead.
    Mr. Connolly. All right.
    So Lois' question, Ms. Frankel's question, and I will put 
it to you first, Mr. Goldenberg: Would the removal of our 
military base give license to or make worse the behavior in 
question?
    Mr. Goldenberg. It is an interesting question. I hadn't 
thought about it precisely that way.
    It may. I think the--I think the bigger challenge 
logistically would be that if we were to remove the military 
base, we--it would, first of all, be incredibly costly. The 
Qataris spent $1 million on that base. Yet, look at what the 
alternatives are. It would then strain our ability to conduct 
operations, the same tempo in Iraq, Afghanistan----
    Mr. Connolly. I don't think that is the question. I think 
the question is----
    Mr. Goldenberg. By leverage.
    Mr. Connolly [continuing]. Implied here, by having the 
military base in Qatar, does it moderate behavior? Would it be 
worse without it, assuming there is any bad behavior at all?
    Mr. Goldenberg. Maybe. I mean, I--so yes, but I would 
argue--it sort of works both ways. I agree with the notion that 
if we had no relationship--this would basically dramatically 
shrink our relationship with Qatar, and then reduce our 
leverage over them. It would also reduce their leverage over 
us, so there is a bit of two sides to it. So it is a hard sort 
of hypothetical to make.
    But I think the better option at this point is now that the 
military base is there, to not walk away from it for all those 
reasons. But to also clarify that we have other options, so 
this isn't a gun they could just hold to our head. I think that 
is where we need to be on this question.
    Mr. Connolly. Dr. Levitt.
    Then my time is up. Thank you, Mr. Chairman.
    Mr. Levitt. So right now, we often look at the base as too 
big to fail, and we need it so badly that we don't really use 
it as much leverage, and we need to begin to use it at some 
leverage.
    If we suddenly woke up tomorrow and there was no base, we 
would lose a lot of leverage, yes, but we would still have 
plenty of areas where we a relationship with Qatar.
    In the best of circumstances, I certainly hope that we 
don't move the base. But I think Ilan is right, that we should 
start looking at what other options there might be to move some 
or all of it, not because we want to, but just to signal that 
it is not us who are over a barrel by virtue of having the base 
there, they are not necessarily over a barrel either, but it is 
a relationship. And I don't think we really use it for very 
much leverage right now.
    Mr. Schanzer. I would agree that we need the leverage. And 
what I recommend in my written testimony is that we need to do 
an assessment. It is not to say that we need to leave, although 
I think the arrangement is not sustainable. It is not, I think, 
the right message that we should be sending to the rest of the 
region. But this does not have to be binary. We can move some 
assets out of that base because we decide we need to 
redistribute, and we can't ever rely too much on the Qataris, 
or we might say, look, we can't move anything. But at the very 
least--and I think, by the way, this hearing is doing a lot of 
good. The Qataris know right now that we are talking about 
whether or not we should move the base, whether we should 
assess moving the base. This is incredibly important. It takes 
leverage away from them and puts it back in our court.
    Mr. Connolly. Thank you, Madam Chairman, on behalf of 
myself and Congresswoman Frankel.
    Ms. Ros-Lehtinen. Thank you very much. We love to hear 
Lois' voice, even in absentia.
    And now we are so pleased to turn to Mrs. Maloney. Thank 
you for your patience in sitting through the subcommittee to be 
able ask your question.
    Thank you, Carolyn, you are always welcome to be a part of 
our sub.
    Mrs. Maloney. Thank you, Madam Chair. And thank you for 
allowing me privileges to attend your committee meeting and 
giving me the opportunity to ask a question.
    And thank you for having a hearing on a very important 
issue, which is a top concern to Secretary Tillerson. That is 
why he personally went to the region, and he has expressed his 
deep concern about peace and security in the region, not only 
for Americans and our base, but also for all of our allies.
    And he publicly expressed his concern that our allies, all 
of the--these are all allies of America, and that he is 
concerned that it--if it continues, it will break up the Gulf 
Cooperation Council that has been an important area of 
cooperation with United States and our ability to collectively 
combat ISIS.
    He also has called for the embargo, or the easing of the 
embargo, as it is harmful to the stability of the region, 
stability of the Gulf Cooperation Council, and it is difficult 
for our base. The embargo affects also the American base.
    So his vision, I believe, is a good one, would you say, 
that we should figure out how to work together? We are all 
allies, and the enemy is not each other, but the enemy is ISIS 
and other terrorist activities in the region. Would you agree 
with Secretary Tillerson, Mr. Goldenberg?
    Mr. Goldenberg. Yes, I would. I think that this whole 
crisis has been a distraction from other things we should be 
dealing with. You know, I am not sure I would have put as much 
into it has he has, necessarily, because I think that, you 
know, part of this is these parties have to also solve it 
themselves, and be responsible about that, but we can play I 
think a very positive role and also try to get them to de-
escalate and guaranteeing any agreement and trying to push all 
of them in terror financing questions.
    So, you know, I--I agree. For our interests, for the U.S. 
interests, the fact that the last 2 months in the Gulf have 
been spent on this instead of on all the things we prefer to be 
spending their time on is not good. That is the bottom line. So 
it would be better if we can find a way to get over this.
    Sadly, I think right now, there are no indicators in the 
near term that is going to happen, so that we start managing 
the situation and also getting awful these different actors to 
at least tone down their public rhetoric and maximalist demands 
so that a few months from now, after things cool down, maybe 
privately they can cut some deals.
    Mrs. Maloney. Well, he has begun focusing on terrorism 
financing, which, I believe, is a way forward, and I understand 
that he has created certain criteria already for the Gulf 
nations to cooperate with them. And I hope that they all will. 
That would be a huge step forward on allowing access to their 
financial tracking of where money is going, if you crack down 
on the terrorism financing, then you are cracking down on 
terrorism.
    Are you aware of any agreements that the State Department 
has made with these countries to combat terrorism financing? I 
was told that Qatar has entered into an agreement to share 
their database, to share their information to combat terrorism 
financing. Are you aware of that?
    Mr. Goldenberg. I am, but I think, Matt, you want to----
    Mr. Levitt. Sure.
    Mr. Goldenberg. Matt is a real expert on this.
    Mr. Levitt. So first of all, thank you for your questions.
    I want to start by pointing out that there is complete 
consensus across this table in the need to de-escalate this 
crisis. And as Ilan said, we need to be focusing on the other 
more important issues. Several of us have also said that some 
of the charges already against Qatar are baseless, but some of 
them are very much grounded in truth, and they affect all those 
other issues.
    Mrs. Maloney. But my question is, are you aware of 
agreements, concrete agreements, between Qatar and the United 
States, or Saudi Arabia and the United States, or Bahrain, or 
the UAE----
    Mr. Levitt. Getting to that.
    Mrs. Maloney [continuing]. Or any of the countries 
specifically to work together to combat terrorism financing?
    Mr. Levitt. Yes. So that is what I was getting at. There 
are many agreements. There have been several of them going on 
for years, bilateral and otherwise. There are two new ones. One 
came out of the Riyadh summit, which was the agreement to set 
up a terror finance tracking center, the TFTC. There is no meat 
on those bones yet. If you look at the Treasury statements, 
they have lots of great ideas, I have spoken to some people who 
wrote those statements; they are aspirational. But there is 
great foundation there upon which we can build.
    And in my previous statements, I have already pointed to 
that as something we can use as a face saving gesture to move 
forward and out of this crisis.
    Mrs. Maloney. I think that is a great idea, Dr. Levitt. We 
should appeal to all of these countries to join us and combat 
the specifics on how we would fight terrorism financing.
    And I personally want to thank Secretary Tillerson for 
entering in with his entire effort to personally try to solve 
this.
    We are talking about allies. We need to get together. And I 
am not aware of any other country that wants to host the U.S. 
military.
    I just recall being invited to leave one country very 
quickly. We were told to leave Saudi Arabia, and I am not aware 
that any other country in the region wants to host a U.S. 
military.
    Are you aware of any other country that wants us to come in 
and be there, Dr. Levitt?
    Mr. Levitt. Well, we do have bases in the UAE and Bahrain, 
so it is not like this is the only base we have. And I don't 
think the base is the ultimate issue.
    If I could just add, there is one other agreement. As you 
noted, Secretary Tillerson signed an MOU, Memorandum of 
Understanding, with Qatar. This too, there is absolutely no 
meat on these bones, but they are very good bones, and there is 
more that can be built on them. I don't want people to walk 
away thinking, now there is an MOU, so now we can cooperate.
    Mrs. Maloney. I think that is a very important issue, Dr. 
Levitt. And what you could do to help us is give us exactly 
what kind of meat should be added to that bone, and then we 
should present a detailed agreement on combating terrorism 
financing to all of the countries in the region and see who 
will cooperate with us in a specific way.
    I must tell you, it is deeply important to me. I represent 
the great city of New York, and lost 500 friends. We lost 3,000 
on that day, but literally thousands and thousands more that 
were exposed to the deadly fumes from the terrorist attack.
    So we know that there are efforts to attack New York and 
other cities in our--including this city. We have intelligence 
on that and other cities, and anything we can do with our 
allies to combat terrorism can save future lives in America and 
other places.
    And I for one support Secretary Tillerson's effort to end 
the crisis. Let's join hands. Let's combat terrorism. Let's 
combat terrorism financing. Because if they can't finance their 
activities, they can't attack us.
    I represent a district that just 6 months ago, two bombs 
went off. You ask where did they get the money for the bombs? 
How did they learn how to put them together? Who helped them? 
So terrorism financing is very important, I think, to the 
world, and especially to the United States and especially to 
New York City, which remains the number one terrorist target in 
the country.
    So I want to thank all of you for your work in combating 
terrorism financing, and I would welcome any ideas of how we 
could put more strength behind efforts to combat it. And I 
think that if we combat it, we would also strike against the 
financing of terrorism activities in other countries, which 
allegedly, I was listening to my colleagues and their 
questioning, were very concerned about, and where they are 
teaching, you know, terrorism and we need to stop it.
    My time is way, way over. I want to thank you for being 
here, and thank you for your work, and thank you for everything 
you have done to make the world safer. And thank you.
    Ms. Ros-Lehtinen. Thank you, Mrs. Maloney.
    Mrs. Maloney. Madam Chair, I don't know if I will have the 
chance to publicly say in your committee meeting how very, very 
sad you have decided to retire and leave us. You have been an 
incredible leader.
    Ms. Ros-Lehtinen. I am going to miss all of our colleagues.
    Mrs. Maloney. Wonderful, your leadership on this committee 
and as chairman of this committee has been extraordinary. First 
woman to head this as the chair. We are very proud of you, 
Ileana.
    Ms. Ros-Lehtinen. Thank you, Mrs. Maloney. Thank you so 
much. And feel free to come back to our subcommittee. You are a 
valuable member. We will make you an ex officio member. Thank 
you.
    I have just one last wrap-up question. I know you gentlemen 
have been testifying for hours now.
    But, Dr. Schanzer, this tension has been going on for such 
a long time. Why do you think that its neighbors decided to 
take action only now? Is there something else that you believe 
precipitated this?
    Mr. Schanzer. Madam Chair, thank you for the question. It 
is--it is really one of the questions that I think we all 
should have been asking all along. I think when you talk to 
most analysts in this town, they tell you, Well, they hate each 
other, it was the Brotherhood, it was the Arab Spring. Well, 
what made this thing erupt in the spring? There were some 
reports that it was, perhaps, because the Qataris paid ransom 
and money went to Shiite militias as well as to bad actors in 
Syria. But there has also been reports surfaced recently and 
there is a little bit of confusion over this. But I think it is 
worth unpacking.
    There is a report from the UAE Ambassador to Russia, he 
went on BBC and claimed the Qataris provided intelligence about 
Emirati and Saudi troop movements in Yemen, and that this led 
directly to the death of dozens of Gulf soldiers in the Yemeni 
operation. I have also heard from three different sources since 
then that it may not have been al-Qaeda that they shared this 
information with but rather the Houthis and the Saleh forces in 
Yemen. This would be devastating for Qatar if this were to be 
true, because, of course, it would mean they were sharing 
information with Iranian proxies, which is an absolute red line 
for the Gulf States. So this allegedly happened in the spring. 
I have not been able to confirm it with a U.S. official. All I 
can tell you is this is what I have been hearing from people 
who generally know in this town.
    Ms. Ros-Lehtinen. Well, thank you very much.
    And I thank the audience and the witnesses for their 
patience, excellent testimony. You will forgive me that I was 
gone a little bit from the podium. We had our bill up on the 
floor calling upon Iran to release the hostages, the American 
hostages, who are citizens and residents, and we were 
overwhelmingly approved. So that is why I was absent.
    And with that, our subcommittee is adjourned. Thank you to 
all.
    [Whereupon, at 4:38p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
